No.

In the Supreme Court of the United States
JANET L. YELLEN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
UNITED STATES HOUSE OF REPRESENTATIVES
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
CURTIS E. GANNON
Deputy Solicitors General
SOPAN JOSHI
Assistant to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
COURTNEY L. DIXON
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether, pursuant to United States v. Munsingwear, Inc., 340 U.S. 36 (1950), this Court should vacate
the court of appeals’ judgment that a single House of
Congress had Article III standing to sue the Executive
Branch to challenge expenditures of funds to construct
a border wall in alleged violation of statutory authority,
and should remand the case with instructions to dismiss
the suit as moot.

(I)

PARTIES TO THE PROCEEDING

Petitioners are Janet L. Yellen, in her official capacity as Secretary of the Treasury; Lloyd J. Austin, III,
in his official capacity as Secretary of Defense;
Alejandro N. Mayorkas, in his official capacity as Secretary of Homeland Security; Debra A. Haaland, in her
official capacity as Secretary of the Interior; the United
States Department of the Treasury; the United States
Department of Defense; the United States Department
of Homeland Security; and the United States Department of the Interior.*
Respondent is the United States House of Representatives.
RELATED PROCEEDINGS

United States District Court (D.D.C.):
United States House of Representatives v. Mnuchin,
No. 19-cv-969 (June 17, 2019)
United States Court of Appeals (D.C. Cir.):
United States House of Representatives v. Mnuchin,
No. 19-5176 (Sept. 25, 2020)

* Pursuant to this Court’s Rule 35.3, the following petitioners have
been automatically substituted as official-capacity parties: Janet L.
Yellen vice Steven T. Mnuchin; Lloyd J. Austin III vice Christopher
C. Miller; Alejandro N. Mayorkas vice Chad F. Wolf; and Debra A.
Haaland vice David L. Bernhardt.

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 10
A. This case is moot.............................................................. 12
B. The court of appeals’ decision would have
warranted this Court’s review but for mootness ......... 16
C. The equities favor vacatur .............................................. 30
Conclusion ................................................................................... 34
Appendix A — Court of appeals opinion (Sept. 25, 2020) ..... 1a
Appendix B — District court memorandum decision
(June 3, 2019) .............................................. 26a
Appendix C — District court order (June 17, 2019) ........... 55a
Appendix D — Court of appeals order (Jan. 13, 2021) ....... 57a
Appendix E — Court of appeals order (Aug. 7, 2020) ........ 59a
Appendix F — Constitutional and statutory provisions..... 80a
TABLE OF AUTHORITIES

Cases:
Already, LLC v. Nike, Inc., 568 U.S. 85, 91 (2013) ...... 14, 15
Alvarez v. Smith, 558 U.S. 87 (2009) ................................... 32
Arizona State Legislature v. Arizona Independent
Redistricting Commission, 576 U.S. 787
(2015) ........................................................................ 26, 27, 28
Azar v. Garza, 138 S. Ct. 1790 (2018) .................................. 30
Board of Regents of the University of Texas System
v. New Left Education Project, 414 U.S. 807
(1973) .............................................................................. 32, 33
Buckley v. Valeo, 424 U.S. 1 (1976)...................................... 28
City of Arlington v. FCC, 569 U.S. 290 (2013) .................... 20
Coleman v. Miller, 307 U.S. 433 (1939) ............................... 26
(III)

IV
Cases—Continued:

Page

Committee On the Judiciary v. McGahn,
968 F.3d 755 (D.C. Cir. 2020) ............................................... 6
Dalton v. Spector, 511 U.S. 462 (1994) ................................ 23
Dames & Moore v. Regan, 453 U.S. 654 (1981) .................. 21
INS v. Chadha, 462 U.S. 919 (1983)............................... 19, 20
Kingdomware Technologies, Inc. v. United States,
136 S. Ct. 1969 (2016) ......................................................... 15
Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992) .......... 28
New Left Education Project v. Board of Regents of
the University of Texas System, 472 F.2d 218, reversed, 414 U.S. 807 (1973) ................................................ 32
New York State Rifle & Pistol Association, Inc. v.
City of New York, 140 S. Ct. 1525 (2020) ................ 4, 14, 16
Office of Personnel Management v. Richmond,
496 U.S. 414 (1990).............................................................. 19
Raines v. Byrd, 521 U.S. 811 (1997) ........................... passim
Spomer v. Littleton, 414 U.S. 514 (1974) ............................. 15
Trump v. Sierra Club, 140 S. Ct. 1 (2019)............................. 4
U.S. Bancorp Mortgage Co. v. Bonner Mall
Partnership, 513 U.S. 18 (1994) ............................ 30, 31, 32
United States Department of the Navy v. FLRA,
665 F.3d 1339 (D.C. Cir. 2012) ..................................... 18, 32
United States v. Microsoft Corp., 138 S. Ct. 1186
(2018) ........................................................................ 30, 31, 31
United States v. Munsingwear, 340 U.S. 36
(1950) .................................................................. 11, 31, 32, 33
Valley Forge Christian College v. Americans
United for Separation of Church & State, Inc.,
454 U.S. 464 (1982)........................................................ 25, 29
Virginia House of Delegates v. Bethune-Hill,
139 S. Ct. 1945 (2019) ................................................ passim
Walling v. James V. Reuter, Inc., 321 U.S. 671 (1944) ...... 30

V
Constitution and statutes:

Page

U.S. Const.:
Art. I ................................................................................... 2
§ 2, Cl. 5 ...................................................................... 19
§ 3, Cl. 6 ...................................................................... 19
§ 5, Cl. 1 ...................................................................... 19
§ 7, Cl. 2 .................................................................. 4, 19
§ 9:
Cl. 7 (Appropriations Clause) ............... 2, 4, 18, 22
Cl. 8........................................................................ 22
§ 10:
Cl. 2........................................................................ 22
Cl. 3........................................................................ 22
Art. II ............................................................................... 22
§ 2, Cl. 2 ...................................................................... 22
Art. III ..................................................................... passim
Administrative Procedure Act, 5 U.S.C. 701 et seq.............. 5
Consolidated Appropriations Act, 2019,
Pub. L. No. 116-6, Div. A, Tit. II, 133 Stat. 17 ................... 2
§ 230(a)(1), 133 Stat. 28 ..................................................... 2
§ 231, 133 Stat. 28 ............................................................ 25
§ 232, 133 Stat. 28 ............................................................ 25
Department of Defense Appropriations Act, 2019,
Pub. L. No. 115-245, Div. A, 132 Stat. 2982........................ 3
Tit. VIII, 132 Stat. 2999 .................................................... 3
§ 8005, 132 Stat. 2999 ....................................... passim
Tit. IX, 132 Stat. 3042 ....................................................... 3
§ 9002, 132 Stat. 3042 ....................................... passim
National Emergencies Act, 50 U.S.C. 1601 et seq. ............... 4
10 U.S.C. 284 .....................................................3, 5, 10, 14, 80a
10 U.S.C. 284(b)(7) ........................................................... 3, 83a
10 U.S.C. 2214(a) ..................................................................... 3

VI
Statutes—Continued:

Page

10 U.S.C. 2808 .......................................................... 3, 5, 9, 91a
10 U.S.C. 2808(a) ......................................................... 3, 5, 91a
50 U.S.C. 1631 .................................................................. 4, 93a
Miscellaneous:
13C Charles Alan Wright et al., Federal Practice and
Procedure § 3533.10.1 (3d ed. 2008) .................................. 33
84 Fed. Reg. 4949 (Feb. 20, 2019) .......................................... 4
H.R.J. Res. 46, 116th Cong., 1st Sess. (2019) ..................... 25
Proclamation No. 10,142, 86 Fed. Reg. 7225
(Jan. 27, 2021) ...................................................... 8, 11, 12, 14
S.J. Res. 54, 116th Cong., 1st Sess. (2019) .......................... 25
Stephen M. Shapiro et al., Supreme Court Practice
§ 19.4 (11th ed. 2019) .......................................................... 16

In the Supreme Court of the United States
No.
JANET L. YELLEN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
UNITED STATES HOUSE OF REPRESENTATIVES
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of Janet L.
Yellen, Secretary of the Treasury, et al., respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the District of
Columbia Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a25a) is reported at 976 F.3d 1. A prior opinion of the
court of appeals (App., infra, 59a-79a) is reported at 969
F.3d 353. The opinion of the district court (App., infra,
26a-54a) is reported at 379 F. Supp. 3d 8.
JURISDICTION

The judgment of the court of appeals was entered on
September 25, 2020. A petition for rehearing was denied on January 13, 2021 (App., infra, 57a-58a). On
March 19, 2020, this Court extended the time within
(1)

2
which to file any petition for a writ of certiorari due on
or after that date to 150 days from the date of the lowercourt judgment, order denying discretionary review, or
order denying a timely petition for rehearing. The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

Pertinent constitutional and statutory provisions are
reproduced in the appendix to this petition. App., infra,
80a-96a.
STATEMENT

Respondent filed suit in the United States District
Court for the District of Columbia, alleging that certain
transfers of funds by Executive Branch officials to construct a border wall exceeded statutory authorization
and for that reason violated the Appropriations Clause,
U.S. Const. Art. I, § 9, Cl. 7. The district court denied
a preliminary injunction and then entered final judgment in favor of the government, holding that respondent lacked Article III standing. App., infra, 26a-54a,
55a-56a. The court of appeals reversed. Id. at 1a-25a.
1. This case concerns actions previously taken to
fund construction of a wall at the southern border of the
United States. Congress appropriated $1.375 billion in
fiscal year 2019 “for the construction of primary pedestrian fencing” along certain portions of the southern
border. Consolidated Appropriations Act, 2019, Pub. L.
No. 116-6, Div. A, Tit. II, § 230(a)(1), 133 Stat. 28. The
Executive Branch, however, made additional funding
available for construction of a barrier using two methods challenged here.
First, the Department of Homeland Security (DHS)
submitted a request to the Department of Defense

3
(DoD) for counterdrug assistance at the border under
10 U.S.C. 284, which authorizes DoD to provide, upon
request from another agency, counterdrug support in
the form of “[c]onstruction of roads and fences and installation of lighting to block drug smuggling corridors
across international boundaries of the United States.”
10 U.S.C. 284(b)(7). The Acting Secretary of Defense
approved the request and transferred approximately
$2.5 billion in fiscal year 2019 between DoD appropriations accounts to ensure adequate funds for construction. App., infra, 5a. Congress regularly authorizes
DoD to “transfer amounts provided in appropriation
Acts” to meet the agency’s needs. 10 U.S.C. 2214(a). To
transfer funds in response to DHS’s Section 284 request, the Acting Secretary invoked Sections 8005 and
9002 of the Department of Defense Appropriations Act,
2019, Pub. L. No. 115-245, Div. A, Tit. VIII, 132 Stat.
2999 and Tit. IX, 132 Stat. 3042. Section 8005 authorizes transfers of up to $4 billion in appropriations
“[u]pon determination * * * that such action is necessary in the national interest.” 132 Stat. 2999. Section
9002 likewise permits transfers of up to $2 billion “subject to the same terms and conditions as the authority
provided in section 8005.” 132 Stat. 3042.
Second, the Secretary of Defense authorized certain
border-wall construction projects under 10 U.S.C. 2808.
App., infra, 5a-6a. Section 2808 provides that when the
President declares a “national emergency * * * that
requires use of the armed forces,” DoD may, “without
regard to any other provision of law,” reprioritize appropriated military construction funds that “have not
been obligated,” to “undertake military construction
projects * * * that are necessary to support such use
of the armed forces.” 10 U.S.C. 2808(a). In February

4
2019, President Trump declared a national emergency
at the southern border under the National Emergencies
Act, 50 U.S.C. 1601 et seq., stating that “this emergency
requires use of the Armed Forces” and specifying that
“the construction authority provided in section 2808
* * * is invoked and made available.” 84 Fed. Reg. 4949,
4949 (Feb. 20, 2019); see 50 U.S.C. 1631. The Secretary
approved the use of up to $3.6 billion in previously appropriated but unobligated military construction funds
to fund border-barrier construction under Section 2808.
App., infra, 5a.
2. Myriad suits across the country—brought by
States, Indian Tribes, municipalities, individuals, and
environmental groups—sought to stop the border-wall
construction, including on the ground that the transfers
and expenditures of funds for border-barrier construction had not been made in accordance with the statutory
authorities on which the government relied, and for that
reason violated the Appropriations Clause. Cf. U.S.
Const. Art. I, § 9, Cl. 7 (“No Money shall be drawn from
the Treasury, but in Consequence of Appropriations
made by Law.”).
In 2019, a district court in California issued a preliminary injunction against construction of certain segments of the border barrier, but this Court stayed that
injunction. Trump v. Sierra Club, 140 S. Ct. 1 (2019)
(No. 19A60). This Court later granted the government’s petition for a writ of certiorari in that case with
respect to certain Section 284 projects using funds
transferred under Sections 8005 and 9002. See Biden v.
Sierra Club, cert. granted, No. 20-138 (Oct. 19, 2020).
As of the date this petition is being filed, that case was
being held in abeyance; two other petitions related to
border-wall construction were pending in this Court,

5
see Biden v. Sierra Club, No. 20-685 (petition filed Nov.
17, 2020); El Paso County v. Biden, No. 20-298 (petition
filed Sept. 2, 2020); and other cases challenging borderwall construction were stayed or being held in abeyance
in the lower courts.
3. a. Respondent, the United States House of Representatives, brought this suit alleging in the operative
complaint that the Executive Branch’s “use of unappropriated funds to construct [a] border wall” under
10 U.S.C. 284 and 10 U.S.C. 2808 violated the Appropriations Clause and the Administrative Procedure Act
(APA), 5 U.S.C. 701 et seq. Am. Compl. at 41, 44, 45
(Counts I-III) (capitalization omitted); see id. at 46
(Count IV) (“use of transferred funds * * * to construct
[a] border wall”) (capitalization omitted); see id. ¶¶ 94138. The operative complaint’s prayer for relief sought
declaratory and injunctive relief to declare unlawful and
enjoin the Executive Branch’s various transfers “for
purposes of constructing a border wall” and “expenditure of funds on a border wall.” Am. Compl. at 48-49.
b. In April 2019, shortly after filing the complaint,
respondent moved for a preliminary injunction “prohibiting [the government] from spending funds in excess of
Congressional appropriations for counter-narcotics
support under section 284 and from spending funds under section 2808(a) on the construction of a wall along
the southern border.” D. Ct. Doc. 17, at 54 (Apr. 23,
2019).
The district court denied a preliminary injunction on
the ground that respondent lacked Article III standing.
App., infra, 26a-54a. Relying on the principles articulated by this Court in Raines v. Byrd, 521 U.S. 811
(1997), the district court explained that “while the Constitution bestows upon Members of the House many

6
powers, it does not grant them standing to hale the Executive Branch into court claiming a dilution of Congress’s legislative authority.” App., infra, 27a. The
court found it “persuasive” that “[i]n the 230 years since
the Constitution was ratified, the political branches
ha[d] entered many rancorous fights over budgets and
spending priorities,” but “no appellate court ha[d] ever
adjudicated” a suit between the political Branches over
an alleged injury to the appropriations power. Id. at
38a-39a. The court also found it significant that the
House has “several political arrows in its quiver to counter perceived threats to” Congress’s appropriations authority. Id. at 51a. The court explained that were it “to
rule on the merits of this case,” it “would not be deciding
constitutional issues as a ‘last resort,’ ” but rather would
be “intervening in a contest between the House and the
President over the border wall” that would “ ‘risk damaging the public confidence that is vital to the functioning of the Judicial Branch.’ ” Ibid. (citation omitted). At
respondent’s request, the district court then entered final judgment in favor of the government. Id. at 55a-56a.
c. Respondent appealed, and following the oral argument but before issuing a decision, the court of appeals sua sponte decided to rehear this case en banc together with Committee On the Judiciary v. McGahn,
968 F.3d 755 (D.C. Cir. 2020) (en banc), which addressed
whether the House Judiciary Committee had Article III
standing to seek judicial enforcement of a subpoena it
had issued to the former White House Counsel. See
C.A. Doc. 1833513 (Mar. 13, 2020); see also C.A. Doc.
1838907 (Apr. 20, 2020). After the en banc court issued
its decision in McGahn, however, it remanded this case
to the panel without addressing whether the district
court had correctly held that respondent lacked Article

7
III standing. App., infra, 59a-60a. Judges Henderson
and Griffith dissented from the remand order, stating
that they would have affirmed the district court’s judgment. Id. at 61a-79a.
d. On remand, the court of appeals panel reversed
the district court. App., infra, 1a-25a. The court of appeals began by summarizing “the protracted disagreement and negotiation between President Trump and the
House of Representatives over the President’s request
for appropriation[s] to erect a physical barrier along the
boundary between the United States and Mexico.”
App., infra, 2a. In describing respondent’s claim that
the challenged funding transfers and expenditures violated the Appropriations Clause and the APA, the court
observed that “[f ]undamentally, the House’s position is
that Congress authorized [the Executive Branch] to
spend $1.375 billion, and only $1.375 billion, for construction of a barrier, but [the Executive Branch is] attempting to spend $8.1 billion.” App., infra, 4a.
The court of appeals held that respondent had Article III standing to assert that claim under the Appropriations Clause. The court acknowledged that Virginia House of Delegates v. Bethune-Hill, 139 S. Ct.
1945 (2019), which was issued after the district court’s
decision, held that “a single House of a bicameral legislature lacks capacity to assert interests belonging to the
legislature as a whole.” App., infra, 18a (quoting Bethune-Hill, 139 S. Ct. at 1953-1954). The court of appeals also recognized that under the Appropriations
Clause, the “constitutional rule is that the Executive
Branch cannot spend until both the House and the Senate say so.” Id. at 22a. The court concluded, however,
that respondent was asserting a “distinct individual
right,” and not a right belonging to “Congress as a

8
whole,” because “the Appropriations Clause requires
two keys to unlock the Treasury, and the House holds
one of those keys.” Id. at 20a-21a. According to the
court, by expending funds to construct a border wall in
alleged excess of what was statutorily authorized, “[t]he
Executive Branch has, in a word, snatched the House’s
key out of its hands. That is the injury over which the
House is suing.” Id. at 21a.
The court of appeals held, however, that respondent
lacked standing to bring a claim under the APA against
the Executive Branch. App., infra, 24a-25a. The court
recognized that “Congress does not have standing to litigate a claim that the President has exceeded his statutory authority,” and concluded that respondent’s allegations in support of its APA claim “in no way set forth a
legislative injury distinct to the House of Representatives and affording it standing.” Id. at 24a.
4. a. On January 20, 2021, President Biden issued a
proclamation declaring that “[i]t shall be the policy of
[his] Administration that no more American taxpayer
dollars be diverted to construct a border wall.” Proclamation No. 10,142, 86 Fed. Reg. 7225 (Jan. 27, 2021). To
that end, the President terminated the national emergency at the southern border, directed that the authorities invoked in the prior declaration of the national
emergency “will no longer be used to construct a wall at
the southern border,” and ordered an immediate pause
of all border-wall construction while the relevant agencies developed a plan to redirect the funds to other purposes consistent with applicable law. Id. at 7225-7226;
see Memorandum from David L. Norquist, Deputy Secretary of Defense, to the Chairman of the Joint Chiefs
of Staff, et al., Department of Defense Actions Regarding the Proclamation of January 20, 2021 (Jan. 23, 2021)

9
(implementing proclamation by ordering the Army
Corps of Engineers to “pause work on all projects” to
construct the border wall and to “cease exercising the
authority provided by [Section 284] to award contracts
or options on existing contracts, incur new obligations
that advance project performance, or incur new expenses unrelated to existing contractual obligations”).
b. On April 30, 2021, DoD announced that it was canceling all border-wall construction projects and would
not use the challenged funds for any further border-wall
construction. See Enclosure to Letter from Elizabeth
B. Prelogar, Acting Solicitor General, to Hon. Scott S.
Harris, Clerk, Biden v. Sierra Club, supra (No. 20-138)
(April 30 DoD Memo). Specifically, DoD stated that it
would “take immediate action” to “cancel all section
2808 border barrier construction projects” and to “release the unobligated military construction funds” for
use in other military construction projects that had
been deferred to fund the border wall. Id. at 4. DoD
explained that it would use funds made available for
border-wall construction under Section 2808 to pay only
contract suspension and termination costs, which would
not include “costs associated with any further construction or construction-related activities of any kind.”
Ibid.
In the April 30 announcement, DoD also stated that
it was taking “immediate action to cancel all section 284
construction projects.” April 30 DoD Memo at 5. DoD
explained that it would use funds transferred under
Sections 8005 and 9002 for counterdrug construction
projects under Section 284 for contract suspension and
termination costs, and also to make permanent certain
temporary safety measures put in place during the

10
pause in construction. Ibid. Because the funds transferred for Section 284 projects were available for obligation only in the fiscal year in which they were transferred, they are no longer available for any other use.
Id. at 20. Any unexpended Section 284 funds will remain in an operations account for five years, after which
the account will be closed and the remaining balance
canceled. Ibid.
c. On June 11, 2021, DoD and DHS announced that
they had completed their plans for the redirection of
funds that had previously been made available for
border-wall construction, as directed by the President’s
January 20 proclamation. See App. to Gov’t Mot. to Vacate, Biden v. Sierra Club, supra (No. 20-138) (June 11,
2021) (June 11 Plan). As relevant here, DoD explained
that its “plan is composed of two parts: (1) cancellation
of projects,” in accordance with the April 30, 2021 memorandum, and “(2) redirection of funds.” Id. at 1a. With
respect to the redirection of funds, DoD announced that
$2.2 billion of unobligated military construction funds
under Section 2808 that had been made available for
border-wall construction would instead be released to
fund 66 military construction projects that had been deferred. Id. at 1a, 6a. DHS also announced the completion of its plan. Id. at 10a-18a. In light of the completion
of those plans and the greatly changed circumstances,
the government moved to vacate and remand the Sierra
Club case. See Gov’t Mot. to Vacate, Biden v. Sierra
Club, supra (No. 20-138).
REASONS FOR GRANTING THE PETITION

The court of appeals’ holding that the House of Representatives has standing, as a single House of the bicameral Congress, to sue the Executive Branch to chal-

11
lenge expenditures allegedly in excess of statutory authority conflicts with this Court’s decision in Virginia
House of Delegates v. Bethune-Hill, 139 S. Ct. 1945
(2019), and with bedrock Article III principles. If it remains in place, the court of appeals’ unprecedented decision will open the courthouse doors in the District of
Columbia to a variety of suits by one House of Congress
against the Executive Branch over how the Executive
Branch is exercising its statutory authority. That would
inject the federal courts into fundamentally political
disputes and upset the balance of power between the
political Branches.
But respondent’s suit challenging the transfer and
expenditure of funds to construct a border wall is now
moot. Following the change in Administration, and consistent with the President’s direction that “no more
American taxpayer dollars be diverted to construct a
border wall,” 86 Fed. Reg. at 7225, DoD has canceled all
border-wall projects and discontinued using any of the
challenged funds for any further construction. Accordingly, this Court should “vacate the judgment below and
remand with a direction to dismiss.” United States v.
Munsingwear, Inc., 340 U.S. 36, 39 (1950). When mootness arises before this Court can review the underlying
judgment, vacatur ensures that no party is “prejudiced
by a [lower-court] decision” and “prevent[s] a judgment, unreviewable because of mootness, from spawning any legal consequences.” Id. at 40-41. That course
is warranted here because this case would have merited
this Court’s review had it not become moot, and the equities favor vacatur under the circumstances.
A. This Case Is Moot

Respondent brought this suit solely to challenge the
Executive Branch’s transfer and expenditure of funds

12
for purposes of constructing a border wall, which, respondent asserted, “usurp[ed] Congress’s exclusive authority under the Appropriations Clause to control federal funds.” Am. Compl. ¶ 59; see id. ¶¶ 107, 108, 119,
127, 136. Respondent’s theory is that Congress had appropriated only a limited amount of funds that could be
spent on a border wall, and the Executive Branch therefore violated the Appropriations Clause and the APA by
expending additional funds to construct a wall. See
App., infra, 2a. Accordingly, all four counts in the
amended complaint hinged on the alleged unlawful
transfer and use of funds “to construct [a] border wall.”
Am. Compl. at 41, 44-46 (Counts I-IV) (capitalization
omitted).
Specifically, respondent alleged in Count I that
“Congress ha[d] not appropriated $2.5 billion in funds
for the purposes authorized by 10 U.S.C. § 284 to construct a wall along the southern border,” Am. Compl.
¶ 96; Sections 8005 and 9002 do “not authorize defendants to transfer funds that Congress has appropriated
for other purposes to the section 284 counter-narcotics
account for purposes of constructing a border wall,” id.
¶¶ 97, 104; and Section 8005 does not authorize transfers “to be expended under section 284 authority to construct a border wall,” id. ¶ 103. Accordingly, respondent maintained, “the House is entitled to a declaration
that defendants’ transfer of funds and expenditure of up
to $2.5 billion to construct a border wall under section
284 violate [the Appropriations Clause],” and an injunction to prevent “defendants from transferring or expending funds in excess of Congressional appropriations, to build a border wall under section 284.” Id.
¶ 109.

13
Similarly, respondent alleged in Count II that
“10 U.S.C. § 2808 does not authorize defendants to
spend up to $3.6 billion to construct a wall along the
southern border,” Am. Compl. ¶ 112; and “Defendants’
expenditure of up to $3.6 billion on the construction of a
border wall under section 2808 violates [the Appropriations Clause],” id. ¶ 118. Accordingly, respondent maintained, “the House is entitled to a declaration that defendants’ expenditure of funds on a border wall under
10 U.S.C. § 2808 violates [the Appropriations Clause]”
and an injunction preventing “defendants from expending any funds pursuant to section 2808 to build a border
wall.” Id. ¶ 120.
In line with those claims, respondent’s prayer for relief requested a declaration that the transfer of funds
“for purposes of constructing a border wall” and the expenditure of those funds “on a border wall” were unlawful. Am. Compl. at 48. The prayer for relief further
sought an injunction preventing any future transfers of
funds “for purposes of constructing a border wall” and
future expenditures in excess of congressional appropriations “to build a border wall.” Id. at 49.
Those claims and requests for relief are now moot.
DoD has stopped all border-wall construction, canceled
the construction projects, and made clear that no more
funds will be transferred or expended for further construction of a border wall. See April 30 DoD Memo;
June 11 Plan. Those actions were taken in response to
the President’s express directives that “no more American taxpayer dollars be diverted to construct a border
wall” and that DoD and others “shall develop a plan for
the redirection of funds.” 86 Fed. Reg. at 7225-7226.
DoD’s plan confirms that no more funds will be made
available for construction of a border wall; that funds

14
previously made available (but not yet obligated) for
Section 2808 construction projects will be restored to
military construction projects that had been deferred;
and that the funds already transferred under Sections
8005 and 9002 for Section 284 construction projects and
funds obligated for Section 2808 construction projects
will not be used for further border-wall construction.
April 30 DoD Memo; June 11 Plan.
The changed circumstances resulting from those formal directives of the President and DoD eliminate any
remaining live dispute between the parties here. In the
relevant counts of the amended complaint, respondent
sought a declaration and injunction against transferring
and expending money on border-wall construction, but
the Executive Branch is no longer transferring or expending any funds for further construction of a border
wall. As a result, no judicial relief exists that would serve
to stop further wall construction beyond what the President and DoD already have stopped, and no funds whatsoever will be transferred or expended for further construction, “which is the precise relief that [respondent]
requested in the prayer for relief in [its] complaint,”
New York State Rifle & Pistol Association, Inc. v. City
of New York, 140 S. Ct. 1525, 1526 (2020) (per curiam).
Nor could border-wall construction reasonably be
expected to resume. While as a general matter “a defendant cannot automatically moot a case simply by
ending its unlawful conduct once sued,” even then a case
becomes moot if “ ‘it is absolutely clear the allegedly
wrongful behavior could not reasonably be expected to
recur.’ ” Already, LLC v. Nike, Inc., 568 U.S. 85, 91
(2013) (citation omitted). The President has declared
that “no more American taxpayer dollars [should] be diverted to construct a border wall,” 86 Fed. Reg. at 7225,

15
and DoD has unequivocally canceled the existing projects and stated that the challenged funds will not be
used for any further construction, see April 30 DoD
Memo; June 11 Plan. DoD has further restored the unobligated funds made available for Section 2808 projects to other military construction projects that had
been deferred. See June 11 Plan.
Those actions were not taken to evade judicial review, but rather reflect the conclusion, following the
change in Administration, that any transfers or expenditures for further construction of a border wall do not
serve the interests of the United States. Cf. Spomer v.
Littleton, 414 U.S. 514, 521-522 (1974) (explaining that
an official-capacity suit may be “moot” when the new officeholder does not “intend[] to continue the asserted
practices of [the prior officeholder] of which [the plaintiffs] complain”). It is thus “absolutely clear” that DoD
will not transfer or expend any funds in excess of congressional appropriations to further construct a border
wall. Already, 568 U.S. at 91 (citation omitted). And for
the same reasons, this is not a case in which “there is a
reasonable expectation that the same complaining party
will be subject to the same action again.” Kingdomware
Technologies, Inc. v. United States, 136 S. Ct. 1969,
1976 (2016) (brackets and citation omitted).
Under the DoD plan developed in response to the
President’s proclamation, DoD may use the previously
obligated military construction funds made available for
Section 2808 construction projects to pay contract suspension and termination costs. See April 30 DoD Memo
at 4. DoD likewise may use the funds transferred under
Sections 8005 and 9002 for Section 284 projects to pay
contract suspension and termination costs, and to make
permanent certain temporary safety features at some

16
of the construction sites. See id. at 4-5. But those lingering expenditures are not for further construction of
a border wall, and halting the transfer and expenditure
of funds for such construction was the conduct that respondent sought to declare unlawful and enjoin in this
case. See pp. 12-14, supra. Nor has respondent ever
suggested during this litigation that the payment of
costs associated with stopping construction of the border wall would be improper. Accordingly, the continued
payment of contract suspension and termination costs,
and the expenditures to make permanent certain temporary safety features at construction sites, do not prevent this case from being moot.
B. The Court Of Appeals’ Decision Would Have Warranted
This Court’s Review But For Mootness

Vacatur of a lower court’s decision because of intervening mootness is generally available only to “those
who have been prevented from obtaining the review to
which they are entitled.” Camreta v. Greene, 563 U.S.
692, 712 (2011) (quoting Munsingwear, 340 U.S. at 39).
It has therefore been the longstanding position of the
United States that when a case becomes moot after the
court of appeals enters its judgment, but before this
Court acts on the petition for a writ of certiorari, Munsingwear vacatur is appropriate only if the question
presented would have merited this Court’s review. See,
e.g., U.S. Br. in Opp. at 5-8, Velsicol Chemical Corp. v.
United States, cert. denied, 435 U.S. 942 (1978) (No. 77900); Gov’t Br. in Opp. at 6-8, Electronic Privacy Information Center v. Department of Commerce, cert. denied, 140 S. Ct. 2718 (2020) (No. 19-777). That position
is consistent with “observation of th[is] Court’s behavior across a broad spectrum of cases since 1978.” Stephen M. Shapiro et al., Supreme Court Practice § 19.4,

17
at 19-29 n.34 (11th ed. 2019); see Camreta, 563 U.S. at
713 (vacating under Munsingwear where the court of
appeals’ decision was independently “appropriate for
review”). The court of appeals’ decision here would
have warranted this Court’s review but for its having
become moot. The lower court’s decision conflicts with
this Court’s precedents and with fundamental principles of Article III standing, and raises issues of exceptional importance.
1. a. The court of appeals’ holding cannot be
squared with this Court’s decision in Bethune-Hill,
which held that “a single House of a bicameral legislature lacks capacity to assert interests belonging to the
legislature as a whole.” 139 S. Ct. at 1953-1954. There,
the Virginia House of Delegates—the lower house of
Virginia’s bicameral legislature—attempted to appeal a
judicial decision invalidating a state law that had enacted a legislative redistricting plan. Id. at 1949-1950.
The House of Delegates argued that it had standing because of “its role in enacting redistricting legislation in
particular,” id. at 1953, and noted that it was “the legislative body that actually drew the redistricting plan”
that was challenged, id. at 1952.
This Court rejected that argument. The Court observed that Virginia’s constitution “allocates redistricting authority to the ‘General Assembly,’ of which the
House constitutes only a part.” Bethune-Hill, 139 S. Ct.
at 1953. “Just as individual members lack standing to
assert the institutional interests of a legislature,” the
Court explained, the Virginia House of Delegates
“lack[ed] capacity to assert” its alleged interest in
drawing the electoral maps that would determine its
own composition. Id. at 1953-1954 (citing Raines v.
Byrd, 521 U.S. 811, 829 (1997)). The Court explained

18
that there was a “mismatch between the body seeking
to litigate and the body to which the relevant constitutional provision allegedly assigned exclusive redistricting authority.” Id. at 1953.
Bethune-Hill resolves this suit. Respondent lacks
Article III standing because “a single House of a bicameral legislature lacks capacity to assert interests belonging to the legislature as a whole.” 139 S. Ct. at 19531954. Respondent asserts that it brought this suit to
vindicate its supposed interests “under the Appropriations Clause to control federal funds.” Am. Compl. ¶ 59.
But the appropriations power is “allocated to Congress”
as a whole, not to either House independently. United
States Department of the Navy v. Federal Labor Relations Authority, 665 F.3d 1339, 1346 (D.C. Cir. 2012)
(Kavanaugh, J.) (citation omitted); see U.S. Const. Art.
I, § 9, Cl. 7. Even respondent’s own complaint acknowledges that the Appropriations “[C]lause vests Congress
with the ‘exclusive power over the federal purse.’ ” Am.
Compl. ¶ 58 (emphasis added; citation omitted). As in
Bethune-Hill, there is thus a “mismatch between the
body seeking to litigate and the body to which the relevant constitutional” authority is assigned. 139 S. Ct. at
1953. That alone is dispositive.
b. In holding otherwise, the court of appeals relied
on its view that “the Appropriations Clause requires
two keys to unlock the Treasury, and the House holds
one of those keys.” App., infra, 21a. From that observation, the court concluded that the Constitution
“give[s] the House a vital power of its own”—namely,
the power to disagree with the Senate on an
appropriation—which in the court’s view is a “legal in-

19
terest that [the House] possesses completely independently of the Senate, or of the Congress as a whole.”
Id. at 24a. That conclusion is incorrect.
Most fundamentally, the court of appeals’ conclusion
disregards the Constitution’s text and structure. When
the Constitution “intend[s] to authorize either House of
Congress to act alone and outside of its prescribed bicameral legislative role,” it does so explicitly. INS v.
Chadha, 462 U.S. 919, 955 (1983). For example, the
House has the “sole Power of Impeachment,” U.S.
Const. Art. I, § 2, Cl. 5; the Senate has “the sole Power
to try all Impeachments,” Art. I, § 3, Cl. 6; and “[e]ach
House shall be the Judge of the Elections, Returns, and
Qualifications of its own Members,” Art. I, § 5, Cl. 1.
Appropriations, by contrast, are “made by Law.”
U.S. Const. Art. I, § 9, Cl. 7; see Office of Personnel
Management v. Richmond, 496 U.S. 414, 424 (1990)
(“[T]he payment of money from the Treasury must be
authorized by a statute.”). And to become a “Law,” a
bill must “have passed the House of Representatives
and the Senate,” U.S. Const. Art. I, § 7, Cl. 2 (emphasis
added); see Chadha, 462 U.S. at 948 (“[N]o law [can]
take effect without the concurrence of the prescribed
majority of the Members of both Houses.”). The “body
to which” the Constitution “assign[s]” the appropriations “authority” is thus Congress as a whole, not either
House independently. Bethune-Hill, 139 S. Ct. at 1953.
Nevertheless, the court of appeals reasoned that
“the House is individually and distinctly injured” by an
alleged “expenditure of funds not authorized” by statute because the House has the practical ability to “refuse[] to allow” an appropriations bill to become a law.
App., infra, 21a. But that is true for any law—it is an

20
integral feature and the necessary consequence of bicameralism. Contrary to the court’s reasoning, one
House’s ability to “refuse[] to allow” a bill to become a
law, ibid., is not a constitutional authority vested in
each House within the meaning of Bethune-Hill. Precisely the opposite: “The bicameral requirement” is a
structural “ ‘check’ ” that “divide[s] and disperse[s]
power” to ensure that “the legislative power w[ill] be
exercised only after the opportunity for full study and
debate in separate settings” and with the support of the
two differently constituted chambers. Chadha, 462 U.S.
at 948, 950-951 (citation omitted). The bicameralism requirement is thus a constraint on the ability of a single
House to take unilateral action. See id. at 948-951, 955958. It is not a grant of authority to the House to
file suit challenging allegedly unauthorized spending
even when the Senate—and thus Congress as an
institution—does not wish to sue.
c. The court of appeals’ “two keys” reasoning also
has no limiting principle. The court provided no principled basis for distinguishing respondent’s Appropriations Clause claim from a garden-variety claim alleging
that an agency has acted in excess of any statutory authority. The court reasoned that the Appropriations
Clause “has long been understood to check the power of
the Executive Branch by allowing it to expend funds
only as specifically authorized” by statute. App., infra,
22a. But that is true of essentially every statute regulating executive action, for “an agency literally has no
power to act * * * unless and until Congress confers
power upon it.” Louisiana Public Service Commission
v. FCC, 476 U.S. 355, 374 (1986); see City of Arlington
v. FCC, 569 U.S. 290, 297 (2013). In other words, apart

21
from the contexts in which the President has independent authority under Article II, see, e.g., Dames & Moore
v. Regan, 453 U.S. 654, 668-669 (1981), the Constitution
prohibits agencies from taking any action absent congressional authorization.
A logical application of the court of appeals’ reasoning would thus lead to the flawed conclusion that the
House suffers a judicially cognizable “distinct injury”
whenever an agency acts in excess of statutory authority, because the House “holds one of th[e] keys” for
passing a statute authorizing such action. App., infra,
20a-21a. Under the court’s logic, any agency action allegedly taken in excess of what the House contends that
Congress has authorized would give rise to a claim that
the action had “render[ed] for naught” the House’s decision to decline to provide such statutory authorization.
Id. at 21a. In affirming the district court’s dismissal of
respondent’s APA claim, the court of appeals recognized the absurdity of that result, explaining that APA
claims “in no way set forth a legislative injury distinct
to the House of Representatives.” Id. at 24a. But the
court neither acknowledged the logical inconsistency
between its reasoning on the APA claim and its holding
on the Appropriations Clause claim, nor explained why
the Appropriations Clause claim (Am. Compl. ¶¶ 94-120)
should be treated differently from respondent’s materially indistinguishable APA claim (id. ¶¶ 121-138).
The court of appeals similarly offered no persuasive
distinction between a claim to enforce the Appropriations Clause and a claim to enforce other constitutional
provisions. The court stated that the Appropriations
Clause is “phrased as a limitation” on taking action
without approval from Congress. App., infra, 11a. But

22
other constitutional provisions also require congressional approval for things such as officers’ acceptance of
items from foreign governments (Art. I, § 9, Cl. 8), interstate compacts (Art. I, § 10, Cl. 2), and imposts or
duties on imports or exports (Art. I, § 10, Cl. 3). Moreover, several constitutional provisions expressly grant
each House independent powers. E.g., Art. II, § 2, Cl. 2
(Senate’s power to give its advice and consent to the
making of treaties and to the appointment of certain officers). A logical application of the court’s reasoning
would allow the Senate to maintain a federal suit alleging, for instance, that an executive agreement ought to
have been submitted to the Senate as a treaty, or that
an executive official is an Officer of the United States
whose appointment required the Senate’s consent.
Even taken at face value, the court of appeals’ attempt to cabin its holding to Appropriations Clause
claims does not provide a meaningful limit because virtually any allegation that an agency has exceeded its
statutory authority could be recast as an Appropriations Clause claim. After all, agency actions invariably
cost money, so many allegations that an agency is acting
in a manner that is not authorized by statute effectively
allege that funds are being expended in a manner not
authorized by statute. This case illustrates the point:
respondent’s claim does not turn on the text of the Appropriations Clause itself, but instead is premised entirely on allegations that DoD’s actions exceeded the
scope of various statutes. That is of course to be expected, given that the Appropriations Clause prohibits
drawing money from the Treasury only when not “in
Consequence of Appropriations made by Law.” U.S.
Const. Art. I, § 9, Cl. 7 (emphasis added). But it underscores the limitless nature of the court’s reasoning,

23
which impermissibly allows statutory claims to be converted into constitutional ones and thus would permit a
single House of Congress to assert an Appropriations
Clause challenge any time it believes the Executive
Branch has exceeded statutory authority. Cf. Dalton v.
Spector, 511 U.S. 462, 474 n.6 (1994) (recognizing that
“in cases in which the President concedes, either implicitly or explicitly, that the only source of his authority is
statutory, no ‘constitutional question whatever’ is
raised,” but rather “ ‘only issues of statutory interpretation’ ”) (citation omitted).
2. The court of appeals’ holding also conflicts with
this Court’s decision in Raines v. Byrd, supra. There,
six Members of Congress who had unsuccessfully opposed the enactment of the Line Item Veto Act brought
suit seeking to declare it unconstitutional. 521 U.S. at
814-816. For purposes of standing, the Raines plaintiffs
contended that the Act had injured them by “alter[ing]
the legal and practical effect of [their] votes” and “divest[ing] [them] of their constitutional role in the repeal
of legislation.” Id. at 816 (citation omitted). This Court
disagreed, holding that the alleged “dilution of institutional legislative power” was not a “personal, particularized, concrete, [or] otherwise judicially cognizable”
injury sufficient to satisfy Article III. Id. at 820, 826.
In so holding, the Court emphasized the absence of
any “historical practice” supporting the legislators’ suit.
Raines, 521 U.S. at 826. “It is evident from several episodes in our history,” the Court observed, “that in analogous confrontations between one or both Houses of
Congress and the Executive Branch, no suit was
brought on the basis of claimed injury to official authority or power.” Ibid.; see id. at 826-828 (discussing the
political, not judicial, resolution of disputes over the

24
Tenure of Office Act of 1867 and a pocket veto by President Coolidge). That past Presidents and Congresses
had not resorted to the courts to resolve interbranch
disputes underscored that the Raines plaintiffs’ suit
against the Executive Branch was not one “traditionally
thought to be capable of resolution through the judicial
process.” Id. at 819 (citation omitted). This Court
acknowledged that there “would be nothing irrational
about a system that granted standing” in these interbranch disputes, and that “some European constitutional courts operate under one or another variant of
such a regime.” Id. at 828. But that “is obviously not
the regime that has obtained under our Constitution to
date,” because it “contemplates a more restricted role
for Article III courts”—one that does not extend to
“some amorphous general supervision of the operations
of government.” Id. at 828-829 (citation omitted).
Respondent’s claim amounts to an allegation that
when the Executive Branch spends money in alleged violation of a statute, it “alters the legal and practical effect of [the House’s] vote[]” to enact that statute.
Raines, 521 U.S. at 816 (brackets and citation omitted).
As Raines held, that does not confer Article III standing. Nor did the court of appeals identify any historical
practice supporting Article III adjudication of interbranch political disputes between a single House of
Congress and the Executive Branch over expenditures
that allegedly exceed statutory authority. To the contrary, as the district court explained, “[i]n the 230 years
since the Constitution was ratified, the political branches
have entered many rancorous fights over budgets and
spending priorities,” but “no appellate court has ever
adjudicated” a suit by Congress against the Executive
over alleged injury to Congress’s appropriations power.

25
App., infra, 38a-39a. That absence of historical support
confirms that such interbranch disputes are not “traditionally thought to be capable of resolution through the
judicial process.” Raines, 521 U.S. at 819 (citation omitted).
Moreover, as with the Raines plaintiffs, the legislative process gives the House “adequate remed[ies]” to
prevent the Executive from spending funds in alleged
excess of statutory authority, further confirming that
respondent’s suit is not suitable for judicial resolution.
Raines, 521 U.S. at 829; see Valley Forge Christian College v. Americans United for Separation of Church &
State, Inc., 454 U.S. 464, 471 (1982) (observing that the
judicial power “is not an unconditioned authority” to review “executive acts”). Among the political tools at its
disposal, Congress here could have restricted or barred
the ability of the Executive Branch to use the funding
sources that DoD identified for border-barrier construction. Express restrictions on the use of federal
funds are familiar features in federal legislation. For
example, Congress imposed express restrictions on the
use of the $1.375 billion it appropriated in fiscal year
2019 for barrier construction. See Consolidated Appropriations Act, 2019, §§ 231, 232, 133 Stat. at 464 (prohibiting use of the funds for barrier construction in certain
locations). Congress also could have enacted a joint resolution terminating President Trump’s nationalemergency declaration, see 50 U.S.C. 1622(a)(1), which
would have prevented DoD from using Section 2808 for
border-barrier construction. Both Houses of Congress
adopted such resolutions twice in 2019, but each effort
failed to secure enough support to override President
Trump’s veto. See H.R.J. Res. 46, 116th Cong., 1st
Sess. (2019); S.J. Res. 54, 116th Cong., 1st Sess. (2019).

26
The court of appeals discounted those political remedies because they would require a “veto-proof majority
of both houses of Congress.” App., infra, 23a. But
Raines relied on similar legislative solutions in concluding that six individual Members lacked standing in that
case. 521 U.S. at 829 (noting that the individual Members had “adequate remed[ies]” through the political
process, such as “repeal[ing] the [Line Item Veto] Act
or exempt[ing] appropriations bills from its reach”).
The same remedy must, a fortiori, be adequate for the
entire House. That the House may lack the ability to
achieve its desired ends through the bicameral legislative process set forth in the Constitution does not justify
permitting respondent, as a single chamber, to end-run
that process and file suit against the Executive Branch
in federal courts.
Respondent has relied (Resp. C.A. Br. 20-22, 28) on
this Court’s decisions in Coleman v. Miller, 307 U.S. 433
(1939), and Arizona State Legislature v. Arizona Independent Redistricting Commission, 576 U.S. 787
(2015). That reliance is misplaced. In Coleman, a group
of 21 Kansas state senators (out of 40) and three members of the state house of representatives sought mandamus in state court against the Secretary of the Senate, alleging that their votes had been “overridden and
virtually held for naught” through an improper tiebreaking procedure. 307 U.S. at 435-436. Coleman held
that the legislators had standing to seek this Court’s review of the judgment of the Supreme Court of Kansas.
Id. at 438; see Raines, 521 U.S. at 822 & n.5 (explaining
the holding of Coleman). But as Raines later explained,
“Coleman stands (at most) for the proposition that legislators whose votes would have been sufficient to defeat (or enact) a specific legislative Act have standing to

27
sue if that legislative action goes into effect (or does not
go into effect), on the ground that their votes had been
completely nullified.” 521 U.S. at 823 (internal citation
omitted). By definition, a single chamber of a bicameral
legislature does not, by itself, have sufficient power to
enact any appropriations statute, and thus lacks standing to challenge an alleged violation of such a statute.
Moreover, as Raines observed, Coleman involved state
legislators who brought suit in state court, and thus did
not present the federal “separation-of-powers concerns” that were present in Raines and that are present
here. Id. at 824 n.8.
Arizona State Legislature is similarly unhelpful to
respondent. There, the Court held that the Arizona
Legislature—not merely a single chamber of that
legislature—had standing to challenge a state ballot initiative creating an independent redistricting commission, on the ground that the initiative “strips the Legislature of its alleged prerogative to initiate redistricting.” 576 U.S. at 800. The Court explained that “[t]he
Arizona Legislature * * * is an institutional plaintiff
asserting an institutional injury.” Id. at 802. As explained above, that is not true here. See Bethune-Hill,
139 S. Ct. at 1953 (emphasizing that “the Arizona House
and Senate” were “acting together” and that “there was
no mismatch between the body seeking to litigate and
the body to which the relevant constitutional provision
allegedly assigned exclusive redistricting authority”).
Indeed, Arizona State Legislature emphasized that its
decision “d[id] not touch or concern the question
whether Congress has standing to bring a suit against
the President.” 576 U.S. at 803 n.12. And it reiterated
that “a suit between Congress and the President would
raise separation-of-powers concerns” that were absent

28
in a case brought by state legislators, and that “[t]he
Court’s standing analysis * * * has been ‘especially rigorous when reaching the merits of the dispute would
force the Court to decide whether an action taken by
one of the other two branches of the Federal Government was unconstitutional.’ ” Ibid. (brackets and citation omitted).
3. The court of appeals’ conclusion that respondent
has standing to sue the Executive Branch also conflicts
with the foundational Article III principle that “an injury amounting only to the alleged violation of a right to
have the Government act in accordance with law [is] not
judicially cognizable.” Lujan v. Defenders of Wildlife,
504 U.S. 555, 575 (1992). This Court has thus refused
“[t]o permit Congress to convert the undifferentiated
public interest in executive officers’ compliance with the
law into an ‘individual right’ vindicable in the courts,”
as that would “transfer from the President to the courts
the Chief Executive’s most important constitutional
duty, to ‘take Care that the Laws be faithfully executed.’ ” Id. at 577 (citation omitted).
That precept applies with particular force when Congress itself—let alone a single House—tries to sue the
Executive Branch to enforce the laws. Cf. Buckley v.
Valeo, 424 U.S. 1, 138 (1976) (per curiam) (“A lawsuit is
the ultimate remedy for a breach of the law, and it is to
the President, and not to the Congress, that the Constitution entrusts the responsibility to ‘take Care that the
Laws be faithfully executed.’ ”). Indeed, the court of appeals itself recognized that “[o]nce a statute is passed,
a claim that the Executive is exceeding his statutory authority is a generalized grievance and not particular to
the body (or part of the body) that passed the law.”

29
App., infra, 24a-25a. Yet that is precisely what respondent’s Appropriations Clause claims allege. See
Am. Compl. ¶ 60 (alleging that the government “cannot
satisfy the statutory requirements for transferring and
expending funds” to construct a border wall); id. ¶ 97
(alleging that “Section 8005 * * * does not authorize
defendants to transfer funds * * * for purposes of constructing a border wall”); id. ¶ 114 (alleging that the
government’s “expenditure of section 2808(a) funds on
a border wall satisfies none of [Section 2808’s] limitations”).
4. The court of appeals’ unprecedented and erroneous decision raises an exceptionally important question
that would have warranted this Court’s review, because
it would open the courthouse doors to a sweeping range
of “confrontations between one or both Houses of Congress and the Executive Branch.” Raines, 521 U.S. at
826. Although the court of appeals purported to cabin
its holding to claims under the Appropriations Clause,
an infinite number of disputes between one House of
Congress and the Executive Branch about how to construe statutes could easily be reframed as disputes over
spending, as discussed above. Allowing such suits to
proceed would entangle the Judiciary in fundamentally
political disputes and risk undermining the Constitution’s assignment to “the President, and not to Congress, * * * the responsibility to ‘take Care that the
Laws be faithfully executed.’ ” Buckley, 424 U.S. at 138
(citation omitted); see Raines, 521 U.S. at 826; Valley
Forge, 454 U.S. at 474 (recognizing that “[r]epeated and
essentially head-on confrontations between the life-tenured branch and the representative branches of government” risks damaging “public confidence”) (citation
omitted). Had this case not become moot, therefore, the

30
court of appeals’ flawed decision that the House has Article III standing to sue would have merited this Court’s
review.
C. The Equities Favor Vacatur

When a case that would otherwise merit this Court’s
review becomes moot “while on its way [to this Court]
or pending [a] decision on the merits,” the Court’s “established practice” is to “vacate the judgment below and
remand with a direction to dismiss.” Munsingwear, 340
U.S. at 39. That practice ensures that no party is “prejudiced by a [lower-court] decision” and “prevent[s] a
judgment, unreviewable because of mootness, from
spawning any legal consequences.” Id. at 40-41; see
U.S. Bancorp Mortgage Co. v. Bonner Mall Partnership, 513 U.S. 18, 21 (1994) (“If a judgment has become
moot [while awaiting review], this Court may not consider its merits, but may make such disposition of the
whole case as justice may require.”) (quoting Walling v.
James V. Reuter, Inc., 321 U.S. 671, 677 (1944)) (brackets in original). The Court should follow that usual
practice and vacate the court of appeals’ decision in this
case.
As this Court has repeatedly observed, the determination whether to vacate the judgment when a case becomes moot while pending review ultimately “is an equitable one,” U.S. Bancorp, 513 U.S. at 29, requiring the
disposition that would be “most consonant to justice” in
light of the circumstances, id. at 24 (citation omitted).
See Azar v. Garza, 138 S. Ct. 1790, 1792 (2018) (per curiam) (observing that because Munsingwear vacatur “is
rooted in equity, the decision whether to vacate turns
on ‘the conditions and circumstances of the particular
case’ ”) (citation omitted).

31
Here, the equities favor vacatur. This is not a case
in which the party requesting vacatur has deliberately
frustrated further review. To the contrary, mootness
here is, at bottom, the result of a change in Administration following an election. Neither justice nor the public
interest would be served by forcing the Executive
Branch to choose between continuing border-barrier
construction projects that it has concluded are not in the
public interest, on the one hand, and acquiescing to a
precedential judicial decision that the Executive Branch
also believes would be contrary to its prerogatives and
harmful to the public interest as a whole, on the other.
In these circumstances, the equities support following
this Court’s “established practice” of vacating the court
of appeals’ judgment, which will “clear[] the path for future relitigation” of the Article III issue between the
House and the Executive Branch without prejudice to
either party. Munsingwear, 340 U.S. at 39-40.
This Court has observed that absent “exceptional
circumstances,” vacatur may be unwarranted when “the
losing party has voluntarily forfeited his legal remedy
by the ordinary processes of appeal or certiorari,” such
as when “mootness results from settlement.” U.S. Bancorp, 513 U.S. at 25, 29; cf. id. at 25 n.3. But different
considerations are applicable when the mooting event
results from action taken by a coordinate Branch in the
exercise of authority and discretion vested in it by the
Constitution and statutes, apart from the litigation. For
example, in United States v. Microsoft Corp., 138 S. Ct.
1186 (2018) (per curiam), this Court vacated the lower
court’s judgment after Congress passed and the President signed a new statute, and the Executive Branch
sought and obtained a new search warrant against respondent, the combination of which eliminated the “live

32
dispute” between the parties on “the issue with respect
to which certiorari was granted.” Id. at 1188; see
United States Department of the Treasury, Bureau of
Alcohol, Tobacco & Firearms v. Galioto, 477 U.S. 556,
560 (1986) (similar, citing Munsingwear). Likewise, in
Alvarez v. Smith, 558 U.S. 87 (2009), the Court determined that vacatur was appropriate even when the
State had voluntarily returned the disputed property to
the respondents (thereby mooting the case), because
the State had done so for reasons unrelated to the federal litigation. Id. at 96.
Indeed, this case is similar in relevant respects to
Munsingwear itself. The claim for injunctive relief asserted in Munsingwear became moot while the government’s appeal was pending as a result of the President’s
issuance of an Executive Order annulling the maximumprice regulation at issue. See 340 U.S. at 39. Nevertheless, the Court indicated that vacatur would have been
available had the government requested it. See id. at
40; cf. U.S. Bancorp, 513 U.S. at 25 n.3 (expressing no
view on “Munsingwear’s implicit conclusion that repeal
of administration regulations” may provide a basis for
vacating a lower court’s decision even when that decision was adverse to the Executive Branch).
This Court’s decision in Board of Regents of the University of Texas System v. New Left Education Project,
414 U.S. 807 (1973) (Mem.), is likewise instructive. In
that case, a state university’s appeal of an injunction
against the enforcement of two university rules became
moot after the university repealed the challenged rules.
See New Left Education Project v. Board of Regents of
the University of Texas System, 472 F.2d 218, 219-220
(5th Cir.), reversed, 414 U.S. 807 (1973). The court of
appeals refused to vacate the district court’s judgment

33
because the case had “become moot * * * through action of the appellant,” id. at 221, but this Court summarily reversed, directing vacatur of the judgment. See 414
U.S. at 218. As a leading treatise has explained, vacatur
was necessary to ensure that governmental and other
parties would not be “deterred” from taking “good
faith” actions that would moot a case by “the prospect
that,” if they do so, “an erroneous district court decision
may have untoward consequences in the unforeseen future.” 13C Charles Alan Wright et al., Federal Practice
and Procedure § 3533.10.1, at 583 (3d ed. 2008). For the
same reasons, vacatur is warranted here.
CONCLUSION

The Court should grant the petition for a writ of certiorari, vacate the judgment of the court of appeals, and
remand with instructions to dismiss the case as moot
under United States v. Munsingwear, Inc., 340 U.S. 36
(1950).
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
CURTIS E. GANNON
Deputy Solicitors General
SOPAN JOSHI
Assistant to the Solicitor
General
MARK R. FREEMAN
MICHAEL S. RAAB
COURTNEY L. DIXON
Attorneys

JUNE 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5176
UNITED STATES HOUSE OF REPRESENTATIVES,
APPELLANT

v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
THE TREASURY, ET AL., APPELLEES
Argued: Feb. 18, 2020
Reheard En Banc: Apr. 28, 2020
Remanded to Panel: Aug. 7, 2020
Decided: Sept. 25, 2020
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-00969)
Before: MILLETT and WILKINS, Circuit Judges,
and SENTELLE, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
SENTELLE.
SENTELLE, Senior Circuit Judge: The United States
House of Representatives brought this lawsuit alleging
that the Departments of Defense, Homeland Security,
the Treasury, and the Interior, and the Secretaries of
those departments violated the Appropriations Clause
(1a)

2a
of the Constitution as well as the Administrative Procedure Act when transferring funds appropriated for
other uses to finance the construction of a physical barrier along the southern border of the United States, contravening congressionally approved appropriations. The
District Court for the District of Columbia held that it
had no jurisdiction because the House lacked standing
to challenge the defendants’ actions as it did not allege
a legally cognizable injury. We disagree as to the constitutional claims and therefore vacate and remand for
further proceedings.
I.
A.

On review of a district court’s dismissal for lack of
jurisdiction, we make legal determinations de novo.
See Williams v. Lew, 819 F.3d 466, 471 (D.C. Cir. 2016).
As a result, we consider anew whether the House established that it has standing. Lujan v. Defs. of Wildlife,
504 U.S. 555, 561 (1992). In doing so, we “ ‘accept as
true all material allegations of the complaint,’ [and]
draw[] all reasonable inferences from those allegations
in plaintiffs’ favor.” LaRoque v. Holder, 650 F.3d 777,
785 (D.C. Cir. 2011) (quoting Warth v. Seldin, 422 U.S.
490, 501 (1975)). Additionally, in assessing standing, we
assume the House is correct on the merits of the underlying claims. Id. Applying that framework to the House’s
complaint, we assume the following facts:
After protracted disagreement and negotiation between President Trump and the House of Representatives over the President’s request for appropriation to
erect a physical barrier along the boundary between the
United States and Mexico, Congress enacted a budget

3a
resolution which included an appropriation of $1.375 billion “for the construction of primary pedestrian fencing,
including levee pedestrian fencing, in the Rio Grande
Valley Sector.” Pub. L. No. 116-6, § 230(a)(1), 133 Stat.
13, 28. The legislation also restricted construction in
certain areas, id. § 231, 133 Stat. at 28, and limited the
construction to “operationally effective designs deployed as of the date of the Consolidated Appropriations
Act, 2017 (Public Law 115-31), such as currently deployed steel bollard designs,” id. § 230(b), 133 Stat. at
28.
The President signed the bill but announced that he
planned to “us[e] his legal authority to take Executive
action to secure additional resources” beyond the funding appropriated by Congress and signed into law by the
President. J.A. 151. He identified three specific sources
for the additional funds: the Treasury Forfeiture Fund,
Department of Defense funds appropriated for the Support of Counterdrug Activities (10 U.S.C. § 284), and Department of Defense funds allocated for other construction projects (10 U.S.C. § 2808). The House’s complaint
contests only the latter two sources. Compl. at 39-45,
U.S. House of Representatives v. Mnuchin, 379 F. Supp.
3d 8 (D.D.C. 2019) (ECF No. 1); Am. Compl. at 41-50,
U.S. House, 379 F. Supp. 3d 8 (ECF No. 59). We note
that the uncontested source did not supply sufficient
funds to cover the allegedly unlawful expenditure, and
therefore the presence of the uncontested funds does
not moot the case.
B.

On April 5, 2019, the House filed this action seeking
declaratory and injunctive relief from the transfers of

4a
funds carried out by the Departments of Defense, Homeland Security, the Treasury, and the Interior, and the
Secretaries of those departments (defendants), alleging
that the defendants’ actions violated the Appropriations
Clause of the Constitution and the Administrative Procedure Act. Fundamentally, the House’s position is that
Congress authorized the defendants to spend $1.375 billion, and only $1.375 billion, for construction of a barrier,
but the defendants are attempting to spend $8.1 billion.
See Compl. ¶¶ 58-59. According to the complaint, the
defendants’ “expenditure of unappropriated funds disregards the separation of powers and usurps Congress’s
exclusive authority under the Appropriations Clause to
control federal funds.” Id. ¶ 58.
Specifically, the complaint alleged that the defendants violated the Appropriations Clause of the Constitution, U.S. Const. art. I, § 9, cl. 7, by transferring additional funds to spend on construction, and that they cannot justify their violation of the appropriations law by
relying on 10 U.S.C. § 284, on § 8005 of the Department
of Defense and Labor, Health and Human Services, and
Education Appropriations Act, 2019 and Continuing Appropriations Act, 2019, Pub. L. No. 115-245, 132 Stat.
2981, 2999 (DOD Appropriations Act), or on 10 U.S.C.
§ 2808, because those statutes do not authorize transfers
of funds in these circumstances. Additionally, the House
alleges that transfers of funds made pursuant to § 8005
of the DOD Appropriations Act violated the Administrative Procedure Act because they were not in accordance
with law. The amended complaint, filed after the district court dismissed the first complaint, added allegations that the transfer of funds under § 9002 of the DOD
Appropriations Act also violated the Administrative Procedure Act.

5a
The first of the contested sources of additional funding is the Counterdrug Activities fund. Under 10 U.S.C.
§ 284, the Secretary of Defense “may provide support
for the counterdrug activities or activities to counter
transnational organized crime of any other department
or agency.” The DOD Appropriations Act provided
$517.171 million for counterdrug activities. DOD Appropriations Act, Pub. L. No. 115-245, 132 Stat. 2981,
2997. When the House filed suit, it believed that most
of the appropriated funds had already been used.
Compl. ¶ 62. As a result, to draw from this fund for
barrier construction, the Executive Branch would need
to transfer “working capital funds of the Department of
Defense or funds made available” in the DOD Appropriations Act “between such appropriations or funds or any
subdivision thereof.” 2019 DOD Appropriations Act
§ 8005; see also id. at § 9002. The statute allows such
transfers if the transfers meet certain requirements.
2019 DOD Appropriations Act § 8005; see also id. at
§ 9002. The President made two transfers relying on
§§ 8005 and 9002: On March 25, 2019, the President
transferred $1 billion, J.A. 177-79, and on May 9, 2019,
the President transferred an additional $1.5 billion, J.A.
226-34.
The second contested source of additional funding is
the reallocation of funds under 10 U.S.C. § 2808. The
President planned to reallocate $3.6 billion citing his authority under § 2808. J.A. 151. Section 2808(a) allows
the Secretary of Defense to “undertake military construction projects” when the President declares a national emergency that “requires [the] use of the armed
forces” and the construction projects are “necessary to
support such use of the armed forces.” On February
15, 2019, the President declared a national emergency,

6a
which Congress did not override.
No. 9844, 84 Fed. Reg. 4949.

See Proclamation

Shortly after filing the complaint, the House moved
for a preliminary injunction, which the defendants opposed. The district court denied the motion, holding
that the House lacked standing because it was not injured. Following the order dismissing the action, the
House moved to amend its complaint to include a request for injunctive relief for the transfer of funds under
§ 9002 of the 2019 DOD Appropriations Act. On June
17, 2019, the district court permitted the amendment,
held that the House lacked standing for the same reasons articulated in its original memorandum dismissing
the suit, and entered final judgment. On June 18, the
House filed a notice of appeal. See generally U.S.
House, 379 F. Supp. 3d 8.
C.

Under Article III of the Constitution, federal courts
are courts of limited jurisdiction. U.S. Const. art. III,
§ 2, cl. 1; see, e.g., Chi. & Grand Trunk Ry. Co. v. Wellman, 143 U.S. 339, 345 (1892). They are empowered
only to hear “cases” and “controversies.” U.S. Const.
art. III, § 2, cl. 1. The case-or-controversy requirement for justiciability involves certain constitutional
minima, one of which is standing. Comm. on Judiciary
of U.S. House of Representatives v. McGahn, 968 F.3d
755, 762 (D.C. Cir. 2020). To establish standing, the injured party must demonstrate that it has an “injury in
fact,” defined as “an invasion of a legally protected interest which is (a) concrete and particularized, and (b)
‘actual or imminent, not “conjectural” or “hypothetical.” ’ ” Lujan, 504 U.S. at 560 (citations omitted) (quoting Whitmore v. Arkansas, 495 U.S. 149, 155 (1990)).

7a
The injury must be “fairly . . . trace[able] to the
challenged action of the defendant” and the injury must
be redressable by a favorable decision by the court. Id.
at 560-61 (alternation in original) (quoting Simon v. E.
Ky. Welfare Rts. Org., 426 U.S. 26, 41-42 (1976)). Appellees contend that appellant has not established the
issue of injury in fact. U.S. House, 379 F. Supp. 3d at
13.
The House, as the party invoking federal jurisdiction,
bears the burden of demonstrating that it has an injury.
Lujan, 504 U.S at 561. “[T]he manner and degree of
evidence required” to show injury changes based on the
“stage[] of the litigation.” Id. “At the pleading stage,
general factual allegations of injury resulting from the
defendant’s conduct may suffice, for on a motion to dismiss we ‘presum[e] that general allegations embrace
those specific facts that are necessary to support the
claim.’ ” Id. (alteration in original) (quoting Lujan v.
Nat’l Wildlife Fed’n, 497 U.S. 871, 889 (1990)). As with
the plaintiff in Food & Water Watch, Inc. v. Vilsack, the
House filed a complaint and a motion for preliminary injunction. Defendants moved to dismiss. The House’s
assertion of injury should be evaluated under the motion
to dismiss standard. 808 F.3d 905, 913 (D.C. Cir. 2015).
We review the issue of standing de novo. Id.
Before this court, the House maintains that it has suffered a concrete injury and thus has standing to contest
the Executive’s self-appropriation of funds described
above. In its brief, the House distills Supreme Court
precedent on legislative standing to two factors: (1)
the institution must suffer an institutional injury, which
the House describes as events that cause a “disruption
of [a legislative] body’s specific powers,” House Br. at 20

8a
(alteration in original) (quoting Tenn. ex rel. Tenn. Gen.
Assembly v. U.S. Dep’t of State, 931 F.3d 499, 511 (6th
Cir. 2019)), and (2) “there must be a match ‘between the
body seeking to litigate and the body to which the relevant constitutional provision allegedly assigned [the impugned] authority,’ ” id. (alteration in original) (quoting
Va. House of Delegates v. Bethune-Hill, 139 S. Ct. 1945,
1953 (2019)).
The House alleges that it has suffered an institutional
injury because the defendants’ actions have disrupted
Congress’s specific authority over the appropriation of
federal funds. Id. at 23-24. Congress’s authority is
derived from the Appropriations Clause, U.S. Const. art
I, § 9, cl. 7, which provides that “No Money shall be drawn
from the Treasury, but in Consequence of Appropriations made by Law.” The House suggests that the
structure of the Appropriations Clause means that Congress, as an institution, has the specific authority to decide how federal funds are allocated and, when the defendants transferred more funds to be spent on construction of the barrier than Congress had authorized,
the defendants disrupted congressional authority. Id.
at 24. The defendants assert that the House of Representatives is not an injured party with standing to litigate this injury in federal court, but that any alleged injury is to the legislative right of Congress as a whole,
not the entity comprising a single house of the bicameral
body. Thus, the defendants’ first line of defense is that
a single house of Congress can never have standing to
litigate a claim of legislative injury against the Executive, even though each house has a specific authority to
prevent the authorization.

9a
The House answers that there is no mismatch between the institution injured and the institution bringing the lawsuit. According to the House, while the Appropriations Clause grants the power to both chambers
of Congress in limiting the spending of federal funds,
each chamber also possesses a unique interest in appropriations. That interest, the House argues, stems from
the nature of appropriations, namely, that appropriations legislation must be passed, “otherwise the government literally cannot function.” Id. at 25. As a result,
the House suggests that each chamber has “the power
to dictate funding limits” because if either chamber does
not pass an appropriation, there will be no funds for the
federal government to spend on the project or goal to
which the proposed appropriation is directed. Id. at
26.
In support of its position that each chamber has a distinct interest, the House relies on statements from the
founding era. In particular, the House turns to the history of the passage and amendment of the Appropriations Clause. In an early draft of the Constitution, all
appropriation bills had to originate in the House and
could not be altered by the Senate. See 2 The Records
of the Federal Convention of 1787, at 131 (M. Farrand
ed., 1911) (hereinafter Records); House Br. at 26-27.
The origination provision was removed, the House asserts, because it made the Senate subservient to the
House in appropriations and the Framers intended that
each chamber would have the independent ability to
limit spending. Additionally, the House references statements from the founding era that recognize the federal
purse has “two strings” and “[b]oth houses must concur
in untying” them. 2 Records at 275. The structure of

10a
the “two strings” system means, the House maintains,
that the House, by not passing an appropriation, can
prevent the expenditure of funds for a government project, such as the proposed border wall even if the Senate
disagrees. In sum, as the House asserts, “unlike the
situation in which one chamber of Congress seeks to enforce a law that it could not have enacted on its own, a
suit to enforce a spending limit vindicates a decision to
block or limit spending that each chamber of Congress
could have effectively imposed—and, in this case, the
House did impose—unilaterally.” House Br. at 27-28.
II.
A.

At the time this appeal was initiated, the appellees
argued that there was no controlling precedent directly
on point as to the question of whether a single chamber
could ever have standing. After the oral arguments in
this case, this court accepted for en banc review another
case involving the question whether the Constitution
categorically denies the House standing to sue the Executive Branch. See McGahn, 968 F.3d 755 (D.C. Cir.
2020). The en banc court has now rendered its decision
in McGahn and returned this case to the original panel
for disposition. The McGahn court clearly held that a
single house of Congress could have standing to pursue
litigation against the Executive for injury to its legislative rights. Id. at 778.
Underlying the present litigation is a dispute about
the nature of Congress’s authority under the Appropriations Clause of the Constitution and whether the President’s refusal to follow the limits on his authority in-

11a
jures one House of Congress. The Constitution provides, “No Money shall be drawn from the Treasury, but
in Consequence of Appropriations made by Law.” U.S.
Const. art. I, § 9, cl. 7. Because the clause is phrased
as a limitation, it means that “the expenditure on public
funds is proper only when authorized by Congress, not
that public funds may be expended unless prohibited by
Congress.” United States v. MacCollom, 426 U.S. 317,
321 (1976) (plurality opinion) (citing Reeside v. Walker,
52 U.S. (11 How.) 272, 291 (1851)). The Appropriations
Clause, thus, provides one foundational element of the
separation between the powers of the sword of the Executive Branch and the purse of the Legislative Branch.
It is a core structural protection of the Constitution—a
wall, so to speak, between the branches of government
that prevents encroachment of the House’s and Senate’s
power of the purse. See Freytag v. Comm’r, 501 U.S.
868, 878 (1991) (“Our separation-of-powers jurisprudence generally focuses on the danger of one branch’s
aggrandizing its power at the expense of another
branch.”); see also Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 501 (2010) (“The
Framers created a structure . . . giving each branch
‘the necessary constitutional means, and personal motives, to resist encroachments of the others[.]’ ”) (quoting The Federalist No. 48 at 333; and No. 51 at 349 (J.
Madison)) (internal citations omitted); cf. Plaut v.
Spendthrift Farm, Inc., 514 U.S. 211, 239 (1995) (“[T]he
doctrine of separation of powers is a structural safeguard. . . . establishing high walls and clear distinctions.”) (emphasis in original).
The separation between the Executive and the ability
to appropriate funds was frequently cited during the
founding era as the premier check on the President’s

12a
power. In fact, “the separation of purse and sword was
the Federalists’ strongest rejoinder to Anti-Federalist
fears of a tyrannical president.” Josh Chafetz, Congress’s Constitution, Legislative Authority and the Separation of Powers 57 (2017); see also 3 The Debates in
the Several State Conventions on the Adoption of the
Federal Constitution 367 (Jonathan Elliot ed., 2d ed.
1836) (hereinafter Debates) (responding to charges that
the President could easily become king by explaining
that “[t]he purse is in the hands of the representatives
of the people”). For example, James Madison, in the
Federalist Papers, explained, “Th[e] power over the
purse may in fact be regarded as the most compleat and
effectual weapon with which any constitution can arm
the immediate representatives of the people. . . .”
The Federalist No. 58 at 394 (J. Madison) (Jacob E.
Cooke ed., 1961). At the New York ratification convention, Alexander Hamilton reassured listeners, stating,
“where the purse is lodged in one branch, and the sword
in another, there can be no danger.” 2 Debates 349.
As evidenced by the quotations above, a repeated
theme in the founding era was the importance of putting
the power of the purse specifically in the hands of the
“representatives of the people.” The Federalist No. 58
at 394 (J. Madison) (Jacob E. Cooke ed., 1961); 2 Debates
393. As noted above, an early draft of the Constitution
went as far as to require appropriations bills originate
in the House of Representatives, the representatives of
the people. 2 Records 131. While the final text does
not include that same origination provision and provides
only that “[a]ll bills for raising Revenue shall originate
in the House of Representatives,” U.S. Const. art. I, § 7,
cl. 1, “[u]nder immemorial custom the general appropri-

13a
ations bills . . . originate in the House of Representatives.” Cannon’s Procedure in the House of Representatives 20, § 834 (4th ed. 1944). In fact, “the House
has returned to the Senate a Senate bill or joint resolution appropriating money on the ground that it invaded
the prerogatives of the House.” Wm. Holmes Brown,
House Practice 71 (1996); see also 3 Deschler’s Precedents 336 (1976). The appropriations statute at issue
in this case originated with the House, as is traditional.
165 Cong. Rec. H997 (daily ed. Jan. 22, 2019); 165 Cong.
Rec. H1181-83 (daily ed. Jan. 24, 2019).
While custom cannot create an interest sufficient to
establish standing, it can illustrate the interest of the
House in its ability, as discussed above, to limit spending
beyond the shared ability of the Congress as a whole.
B.

In cases before the McGahn decision of this court,
the Supreme Court considered the question of what constitutes an injury to a legislature at several points in history. This court has also considered the issue of legislative standing. Four foundational Supreme Court opinions outline the circumstances that can constitute legislative injury. The district court discussed three of the
four. The fourth was released after the district court’s
memorandum decision.
We turn, first, to Coleman v. Miller, 307 U.S. 433
(1939), in which the Supreme Court determined that
there was a legislative injury. In Coleman, the Kansas
legislature voted on whether to ratify the Child Labor
Amendment to the U.S. Constitution. Id. at 435-36.
Twenty of the forty state senators voted to ratify the
amendment and twenty voted against ratification. Id.

14a
at 436. The Lieutenant Governor broke the tie and
voted to ratify the amendment. Id. Twenty senators
and three members of the Kansas House of Representatives brought suit in Kansas state court challenging the
Lieutenant Governor’s authority to cast the deciding
vote. Id. The suit made its way to the Supreme Court.
The Court held that the “senators have a plain, direct
and adequate interest in maintaining the effectiveness
of their votes,” thus “com[ing] directly within the provisions of the statute governing [the Supreme Court’s] appellate jurisdiction” because the Lieutenant Governor’s
tie-breaking vote meant that the senators’ votes had
been “overridden and virtually held for naught.” Id. at
438. In particular, the Supreme Court noted that the
plaintiffs had “an adequate interest to invoke” federal
jurisdiction because the injury was more concrete and
particularized than an injury to a “right possessed by
every citizen” and the votes of the twenty senators
“would have been decisive in defeating the ratifying resolution.” Id. at 438, 440-41. Since it was decided, Coleman has come to stand for the idea that action that “nullified” legislative power can establish a legislative injury. Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n, 576 U.S. 787, 803 (2015) (quoting Raines v.
Byrd, 521 U.S. 811, 823 (1997)).
Next, in Raines v. Byrd, 521 U.S. 811 (1997), the Supreme Court determined there was no legislative injury.
In Raines, four senators and two representatives sued
the Secretary of the Treasury and the Director of the
Office of Management and Budget alleging that the Line
Item Veto Act, which was passed over the objections of
the six Members of Congress, was unconstitutional.
521 U.S. at 814. While the Act provided that “[a]ny

15a
Member of Congress or any individual adversely affected by [this Act] may bring an action, in the United
States District Court for the District of Columbia, for
declaratory judgment and injunctive relief on the
ground that any provision of this part violates the Constitution,” the Members of Congress were still required
to show an injury in fact to establish constitutional injury. Id. at 815-16, 818-19 (alteration in original). The
Members of Congress described that injury as a “diminution of legislative power.” Id. at 821. The Supreme
Court held, however, that the alleged injury was not sufficient to establish legislative standing. Id. at 829-30.
While nullification is a theory that has supported a determination of injury, in this case, the Supreme Court
noted, “[t]here is a vast difference between the level of
vote nullification at issue in Coleman and the abstract
dilution of institutional legislative power.” Id. at 826.
Additionally, and equally important, the Supreme
Court explained, the “appellees have alleged no injury
to themselves as individuals” and the potential institutional injury, diminution of power, was “wholly abstract
and widely dispersed” among the other Members of
Congress. Id. at 829. The opinion also “attach[ed]
some importance to the fact that appellees [were not]
authorized to represent their respective Houses of Congress in th[at] action, and indeed both Houses actively
oppose[d] their suit.” Id. It was, therefore, significant that the plaintiffs were individual Members of Congress attempting to vindicate the rights of Congress as
a whole. The Supreme Court made clear that Raines
involves the standing of individual legislators, not of legislative institutions. See Bethune-Hill, 139 S. Ct. at
1953 (citing Raines for the proposition that “individual

16a
members lack standing to assert the institutional interests of a legislature”); Arizona State Legislature, 576
U.S. at 801-02 (“In Raines, this Court held that six individual Members of Congress lacked standing to challenge the Line Item Veto Act.”). Similarly, this court
has also held that there was no standing for individual
Members of Congress in suits against the Executive.
See Campbell v. Clinton, 203 F.3d 19, 22-24 (D.C. Cir.
2000); Chenoweth v. Clinton, 181 F.3d 112, 117 (D.C. Cir.
1999). In Campbell, thirty-one individual Members of
Congress “filed suit claiming that the President violated
the War Powers Resolution and the War Powers Clause
of the Constitution by directing U.S. forces’ participation” in a NATO campaign in Yugoslavia. 203 F.3d at
19-20. We held that they did not have standing to pursue either the statutory or the constitutional claims.
Id. at 22-24. For the constitutional claim, our analysis
was influenced by the fact that the President has war
powers independent of those of Congress and “did not
claim to be acting pursuant to the defeated declaration
of war or a statutory authorization, but instead ‘pursuant to [his] constitutional authority to conduct U.S. foreign relations and as Commander-in-Chief and Chief
Executive.’ ” Id. at 22 (alteration in original).
In the third Supreme Court decision, Arizona State
Legislature v. Arizona Independent Redistricting Commission, Arizona voters approved an initiative that
would strip the Arizona state legislature of its authority
to draw district lines. 576 U.S. at 792. The Arizona
state legislature sued in federal court seeking to enjoin
the use of the newly drawn legislative district maps.
Id. The Supreme Court agreed with the special district
court that the state legislature had standing. Id. at
793. In particular, the Supreme Court relied on the

17a
fact that the state legislature was “an institutional plaintiff asserting an institutional injury, and [the plaintiff]
commenced this action after authorizing votes in both
of its chambers.” Id. at 802. The Supreme Court contrasted the situation in Arizona State Legislature
with that in Raines where the plaintiffs were individual
members but “[t]he ‘institutional injury’ at issue . . .
scarcely zeroed in on any individual Member.” Id.
Additionally, the Supreme Court noted, the voter initiative “would ‘completely nullif[y]’ any vote by the Legislature, now or ‘in the future,’ ” as the state senators’
votes were nullified in Coleman. Id. at 804 (alteration
in original) (quoting Raines, 521 U.S. at 823-24). In
sum, the Arizona state legislature had standing because
“there was no mismatch between the body seeking to litigate and the body to which the relevant constitutional
provision allegedly assigned” authority. Va. House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1953 (2019).
Finally, we reach Virginia House of Delegates v.
Bethune-Hill, which was released after the district
court’s opinion in this case. In Bethune-Hill, voters
sued the state alleging that its districts, drawn after the
2010 census, were racially gerrymandered. Id. at 194950. The Virginia House of Delegates intervened as defendants. Id. at 1950. A special three-judge district
court enjoined the use of the new districts because “the
[S]tate ha[d] [unconstitutionally] sorted voters . . .
based on the color of their skin.” Id. (alterations and
omission in original) (quoting Bethune-Hill v. Va. State
Bd. of Elections, 326 F. Supp. 3d 128, 180 (2018)).
When Virginia’s Attorney General declined to appeal,
the House of Delegates did so. Id. The House of Delegates alleged that it had standing both on behalf of the
state, id. at 1951-53, and on its own, id. at 1953-56. The

18a
Supreme Court swiftly dismissed the House of Delegates’s allegation that it had standing on behalf of the
state because the Attorney General was the only party
authorized to represent the state. Id. at 1952.
The Supreme Court also held that the House of Delegates did not have standing on its own. Id. at 1953-56.
The House of Delegates rested assertions of standing on
“its role in enacting redistricting legislation in particular.” Id. at 1953. But the Supreme Court noted that
its “precedent . . . lends no support for the notion
that one House of a bicameral legislature, resting solely
on its role in the legislative process, may appeal on its
own behalf a judgment invalidating a state enactment.”
Id. The Supreme Court also compared the House of
Delegates’s situation to that in Arizona State Legislature and Coleman. Because the entire bicameral General Assembly was granted the authority to redraw district lines, there was a “mismatch” between the party
seeking to litigate, the House of Delegates, and the
party with the constitutional authority, the General Assembly. Id. at 1953-54. “Just as individual members
lack standing to assert the institutional interests of a
legislature, a single House of a bicameral legislature
lacks capacity to assert interests belonging to the legislature as a whole.” Id. (citations omitted). Moreover,
the Supreme Court distinguished Coleman because “this
case does not concern the results of a legislative chamber’s poll or the validity of any counted or uncounted
vote.” Id. at 1954.
These four cases seemingly give rise to two important questions for analyzing legislative standing:
First, did the defendant’s action curtail the power and

19a
authority of the institution? The authority of the Kansas Senate was curtailed by the tie-breaking vote of the
Lieutenant Governor in Coleman. So too was the
power of the Arizona legislature curtailed by the voter
initiative in Arizona State Legislature. But the Virginia House of Delegates did not have its power curtailed when the General Assembly’s redistricting was
enjoined by a special three-judge district court.
Second, is there a mismatch between the entity pursuing litigation and the entity whose authority or right
was curtailed? In Arizona there was not. In both
Bethune-Hill and Raines, there was, as the plaintiff was
attempting to vindicate the rights of another entity.
In addition to those two questions, our cases and the
Supreme Court’s additionally consider three other factors: the history of interbranch disputes in the courts,
alternative political remedies available to the plaintiff,
see, e.g., Raines, 521 U.S. at 829 (considering whether
litigating the dispute is “contrary to historical experience” and whether Congress would have “an adequate
remedy” without judicial intervention), and separation
of powers, Chenoweth, 181 F.3d at 116-17. In none of
the above decisions of the Supreme Court or this court
was there ever an express determination of the first
question before us: whether a single house of a bicameral legislature can ever have standing to litigate an alleged injury to its legislative prerogative distinct from
the institutional standing of the entire legislature to litigate an institutional injury to the body as a whole. In
McGahn, the en banc court considered that question in
deciding an action brought on behalf of the House of
Representatives to enforce a subpoena not involving the

20a
joinder of the Senate. The court answered the standing question with a resounding “yes.”
We need not re-analyze what the en banc court so recently expounded. It suffices to note that the McGahn
court spoke in conventional language of standing. In
distinguishing Bethune-Hill, in which the Supreme
Court had found no standing, from McGahn, in which
there was standing, the en banc court explained that in
Bethune-Hill the Supreme Court focused on the fundamental proposition that to effect standing, an injury
must be particularized. “For an injury to be ‘particularized,’ it ‘must affect the plaintiff in a personal and individual way.’ ” McGahn, 968 F.3d at 766 (quoting
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1548 (2016)). In
Bethune-Hill the alleged injury was to the Virginia legislature as a whole. The House of Delegates was not
the injured party and therefore had no standing. In
McGahn, the injury was particularized to the House of
Representatives alone. Therefore, the en banc court
found standing in the House to bring the litigation without the joinder of the Senate.
When the injury alleged is to the Congress as a
whole, one chamber does not have standing to litigate.
When the injury is to the distinct prerogatives of a single chamber, that chamber does have standing to assert
the injury. The allegations are that the Executive interfered with the prerogative of a single chamber to
limit spending under the two-string theory discussed at
the time of the founding. Therefore, each chamber has
a distinct individual right, and in this case, one chamber
has a distinct injury. That chamber has standing to
bring this litigation.

21a
As in Arizona State Legislature, the House is suing
to remedy an institutional injury to its own institutional
power to prevent the expenditure of funds not authorized. Taking the allegations of the complaint as true
and assuming at this stage that the House is correct on
the merits of its legal position, the House is individually
and distinctly injured because the Executive Branch has
allegedly cut the House out of its constitutionally indispensable legislative role. More specifically, by spending funds that the House refused to allow, the Executive
Branch has defied an express constitutional prohibition
that protects each congressional chamber’s unilateral
authority to prevent expenditures. It is therefore “an
institutional plaintiff asserting an institutional injury”
that is both concrete and particularized, belonging to the
House and the House alone. Arizona State Legislature, 576 U.S. at 802.
To put it simply, the Appropriations Clause requires
two keys to unlock the Treasury, and the House holds
one of those keys. The Executive Branch has, in a
word, snatched the House’s key out of its hands. That
is the injury over which the House is suing.
That injury—the snatched key—fits squarely within
the Lujan mold because it is not a generalized interest
in the power to legislate. Rather, the injury is concrete
and particularized to the House and the House alone.
The alleged Executive Branch action cuts the House out
of the appropriations process, rendering for naught its
vote withholding the Executive’s desired border wall
funding and carefully calibrating what type of border security investments could be made. The injury, in other
words, “zeroe[s] in” on the House. Arizona State Legislature, 576 U.S. at 802; see also I.N.S. v. Chadha, 462

22a
U.S. 919, 946 (1983) (“These provisions of Art. I are
integral parts of the constitutional design for the separation of powers.”).
Applying the “especially rigorous” standing analysis
that the Supreme Court requires in cases like this, Arizona State Legislature, 576 U.S. at 803 n.12, reinforces
the House’s injury in fact. To hold that the House is
not injured or that courts cannot recognize that injury
would rewrite the Appropriations Clause. That Clause
has long been understood to check the power of the Executive Branch by allowing it to expend funds only as
specifically authorized.
As then-Judge Kavanaugh
wrote for this court, the Appropriations Clause is “a bulwark of the Constitution’s separation of powers among
the three branches of the National Government,” and it
“is particularly important as a restraint on Executive
Branch officers.” U.S. Dep’t of Navy v. Fed. Lab. Rel.
Auth., 665 F.3d 1339, 1347 (D.C. Cir. 2012).
The ironclad constitutional rule is that the Executive
Branch cannot spend until both the House and the Senate say so. “However much money may be in the
Treasury at any one time, not a dollar of it can be used
in the payment of any thing not thus previously sanctioned. Any other course would give to the fiscal officers a most dangerous discretion.” Reeside v. Walker,
52 U.S. (11 How.) at 291. The Appropriations Clause
even “prevents Executive Branch officers from even inadvertently obligating the Government to pay money
without statutory authority.” U.S. Dep’t of Navy, 665
F.3d at 1347 (citing Off. Pers. Mgmt. v. Richmond, 496
U.S. 414, 416 (1990), and U.S. Dep’t of Air Force v. Fed.
Lab. Rel. Auth., 648 F.3d 841, 845 (D.C. Cir. 2011)).

23a
But under the defendants’ standing paradigm, the
Executive Branch can freely spend Treasury funds as it
wishes unless and until a veto-proof majority of both
houses of Congress forbids it. Even that might not be
enough: Under the defendants’ standing theory, if the
Executive Branch ignored that congressional override,
the House would remain just as disabled to sue to protect its own institutional interests. That turns the constitutional order upside down. Cf. Chadha, 462 U.S. at
958 (“[T]he carefully defined limits on the power of each
Branch must not be eroded.”). The whole purpose of
the Appropriations Clause’s structural protection is to
deny the Executive “an unbounded power over the public purse of the nation,” and the power to “apply all its
monied resources at his pleasure.” U.S. Dep’t of Navy,
665 F.3d at 1347 (quoting 3 JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION OF THE UNITED STATES
§ 1342, at 213-14 (1833)); see also Cincinnati Soap Co. v.
United States, 301 U.S. 308, 321 (1937) (noting the Appropriations Clause “was intended as a restriction upon
the disbursing authority of the Executive department”).
Nor does it work to say that suit can only be brought
by the House and Senate together, as that ignores the
distinct power of the House alone not to untie its purse
string. “[E]ach Chamber of Congress [possesses] an ongoing power—to veto certain Executive Branch decisions
—that each House could exercise independent of any
other body.” Bethune-Hill, 139 S. Ct. at 1954 n.5.
Unlike the affirmative power to pass legislation, the
House can wield its appropriations veto fully and effectively all by itself, without any coordination with or cooperation from the Senate. Cf. McGahn, 968 F.3d at
768.

24a
For that reason, expenditures made without the
House’s approval—or worse, as alleged here, in the face
of its specific disapproval—cause a concrete and particularized constitutional injury that the House experiences, and can seek redress for, independently. And
again, failure to recognize that injury in fact would fundamentally alter the separation of powers by allowing
the Executive Branch to spend any funds the Senate is
on board with, even if the House withheld its authorizations.
In short, Article III’s standing requirement is meant
to preserve not reorder the separation of powers.
In that way, this case bears no resemblance to
Bethune-Hill. The House of Representatives seeks to
vindicate a legal interest that it possesses completely independently of the Senate, or of the Congress as a
whole. The Constitution’s structure and the Appropriations Clause together give the House a vital power
of its own: “[N]ot a dollar . . . can be used in the
payment of any thing” unless the House gives its “sanction[].” Reeside, 52 U.S. (11 How.) at 291. That is
quite different from an effort by one legislative chamber
to enforce rights that vest solely in the full “legislature
as a whole.” Bethune-Hill, 139 S. Ct. at 1953-54.
The claims of the House under the Administrative
Procedure Act warrant little separate discussion. Those
allegations in no way set forth a legislative injury distinct to the House of Representatives and affording it
standing. This court has explained that Congress does
not have standing to litigate a claim that the President
has exceeded his statutory authority. See, e.g., Campbell, 203 F.3d at 22-24. Once a statute is passed, a claim
that the Executive is exceeding his statutory authority

25a
is a generalized grievance and not particular to the body
(or part of the body) that passed the law. See, e.g., Hollingsworth v. Perry, 570 U.S. 693, 707 (2013) (explaining
that citizens who stewarded a ballot initiative through
the electoral process did not have particularized injury
to sue after it was passed); Lujan, 504 U.S. at 575-76
(“[A]n injury amounting only to the alleged violation of
a right to have the Government act in accordance with
law [is] not judicially cognizable. . . . ”). Both of
these cases deal with private individuals as opposed to a
house of Congress, but the logic translates to Congress
as well.
CONCLUSION
The judgment of the district court insofar as it dismisses the Administrative Procedure Act claims is affirmed. Insofar as the judgment dismisses the constitutional claims, it is vacated and remanded for further
proceedings consistent with this decision.

26a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 1:19-cv-00969 (TNM)
U.S. HOUSE OF REPRESENTATIVES, PLAINTIFF
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
THE TREASURY, ET AL., DEFENDANTS
Filed:

June 3, 2019

MEMORANDUM OPINION

Few ideas are more central to the American political
tradition than the doctrine of separation of powers.
Our Founders emerged from the Revolution determined
to establish a government incapable of repeating the tyranny from which the Thirteen Colonies escaped. They
did so by splitting power across three branches of the
federal government and by providing each the tools required to preserve control over its functions. The
“great security against a gradual concentration of the
several powers in the same department,” James Madison explained, “consists in giving to those who administer each department the necessary constitutional means
and personal motives to resist encroachments of the others.” The Federalist No. 51.

27a
This is a case about whether one chamber of Congress has the “constitutional means” to conscript the Judiciary in a political turf war with the President over the
implementation of legislation. The U.S. House of Representatives seeks to enjoin the Secretaries and Departments of the Treasury, Defense, Homeland Security,
and the Interior (collectively, the “Administration”) from
spending certain funds to build a wall along our southern border. The House argues that this expenditure
would violate the Appropriations Clause of the Constitution and usurp Congress’s authority. This harm, the
House suggests, constitutes an “institutional injury”
supporting Article III standing.
The Administration disagrees. The Judiciary cannot reach the merits of this dispute, it contends, because
the Constitution grants the House no standing to litigate
these claims. The Administration is correct. The “complete independence” of the Judiciary is “peculiarly essential” under our Constitutional structure, and this independence requires that the courts “take no active resolution whatever” in political fights between the other
branches. See The Federalist No. 78 (Alexander Hamilton). And while the Constitution bestows upon Members of the House many powers, it does not grant them
standing to hale the Executive Branch into court claiming a dilution of Congress’s legislative authority. The
Court therefore lacks jurisdiction to hear the House’s
claims and will deny its motion.
I.

The House and the President have been engaged in a
protracted public fight over funding for the construction
of a barrier along the border with Mexico. Following
the longest partial shutdown of the Federal Government

28a
in history, Congress passed the Consolidated Appropriations Act of 2019 (the “CAA”), which provided $1.375
billion for new border fencing in the Rio Grande Valley.
See Pub. L. No. 116-6 (2019). The President had sought
much more. See Letter from Acting Dir., Office of Mgmt.
& Budget to Senate Comm. On Appropriations (Jan. 6,
2019) (requesting “$5.7 billion for construction of a steel
barrier for the Southwest border”). 1
On the same day he signed the CAA into law, President Donald Trump declared that “a national emergency
exists at the southern border of the United States.”
Proclamation No. 9844, 84 Fed. Reg. 4949 (Feb. 15,
2019) (“National Emergency Declaration”). The President determined that the “current situation at the
southern border presents a border security and humanitarian crisis that threatens core national security interests.” Id. He noted that the “southern border is a
major entry point for criminals, gang members, and illicit narcotics” and that the problem of “large-scale unlawful migration” has “worsened in certain respects in
recent years.” Id. “Because of the gravity of the current emergency situation,” he added, “it is necessary for
the Armed Forces to provide additional support to address the crisis.” Id.
Congress passed a joint resolution to void the President’s National Emergency Declaration. See 165 Cong.
Rec. S1882 (Mar. 14, 2019). Explaining the vote, Speaker
Nancy Pelosi remarked that “[w]e would be delinquent

The Court takes judicial notice of the government documents
cited in this Opinion as “sources whose accuracy cannot reasonably
be questioned.” Fed. R. Evid. 201. See Cannon v. District of Columbia, 717 F.3d 200, 205 n.2 (D.C. Cir. 2013).
1

29a
in our duties as Members of Congress if we did not overturn what the President is proposing. He is asking
each and every one of us to turn our backs on the oath
of office that we took to the Constitution of the United
States.” See Speaker Pelosi’s Floor Speech on Privileged Resolution, House of Representatives (Feb. 27,
2019).
The President vetoed the resolution. See Veto Message to the House of Representatives for H.J. Res. 46,
White House (March 15, 2019). Some Members of the
House tried unsuccessfully to override this veto. See
165 Cong. Rec. H2815 (Mar. 26, 2019). For the override to be operative, the Senate would have also had to
vote to support it by a super-majority. It did not attempt to do so. So the “veto of the President was sustained and the joint resolution was rejected.” Id.
The House then filed this suit.
Upon a declaration of a national emergency “that requires the use of armed forces,” the Secretary of Defense “may authorize the Secretaries of the military departments to undertake military construction projects,
not otherwise authorized by law that are necessary to
support such use of the armed forces.” 10 U.S.C.
§ 2808(a). The White House explained that Section
2808 would be one of three sources of funding the Administration would use, on top of the $1.375 billion Congress appropriated through the CAA, to build the border wall. See President Donald J. Trump’s Border Security Victory, White House (Feb. 15, 2019), ECF No.
36-7. It plans to use sequentially: (1) $601 million
from the Treasury Forfeiture Fund; (2) up to $2.5 billion
in funds transferred for “Support for Counterdrug Activities” under 10 U.S.C. § 284; and (3) up to $3.6 billion

30a
reallocated from Department of Defense military construction projects under Section 2808. Id.
The House does not challenge the President’s declaration of an emergency under the National Emergencies
Act. See Compl., ECF No. 1, at 39-43; Hr’g Tr. 81:2325. 2 Nor does it contest the use of the Treasury Forfeiture Fund to build the wall. See Pl.’s Mot. for Prelim. Inj. (“Pl.’s Mot.”), ECF No. 17, at 21. Instead, it
argues that 10 U.S.C. §§ 284 and 2808 do not authorize
the use of funds for building a border wall and that the
Administration’s planned spending therefore violates
the Appropriations Clause of the Constitution and the
Administrative Procedure Act (the “APA”). Compl.
39-42.
The Administration rejects the House’s interpretation of the statutes. See Defs.’ Opp. to Mot. for Prelim.
Inj. (“Defs.’ Opp.”), ECF No. 36, at 57-64. But primarily, it contends that the House lacks standing to raise its
arguments here. Id. at 28. There are “no Appropriations Clause principles at issue in this case,” the Administration claims, precisely because the parties are contesting the meaning of bills that Congress has validly
passed using its Appropriations power. Id. at 37.
And quarrels over how to implement a law do not support legislative standing, as the “Constitution does not
contemplate an active role for Congress in the supervision of officers charged with the execution of the laws it
enacts.” Id. at 36 (quoting Bowsher v. Synar, 478 U.S.
714, 722 (1986)).

All citations are to the page numbers generated by this Court’s
CM/ECF system.
2

31a
The parties submitted thorough briefing on these issues, and the House’s application for a preliminary injunction is now ripe. The Court also heard oral arguments from both sides and has reviewed the memoranda
submitted by amici curiae.
II.

Before it may consider the merits of the House’s motion, the Court must first confirm its jurisdiction over
this case. Article III of the Constitution limits the jurisdiction of federal courts to “actual cases or controversies.” Clapper v. Amnesty Int’l USA, 568 U.S. 398, 408
(2013). One element of the “case-or-controversy requirement” is that plaintiffs “must establish that they have
standing to sue.” Id.
Article III’s standing requirements are “built on separation-of-powers principles” and serve “to prevent the
judicial process from being used to usurp the powers of
the political branches.” Id. Thus, “when reaching the
merits of the dispute would force [it] to decide whether
an action taken by one of the other two branches of the
Federal Government was unconstitutional,” the Court’s
standing inquiry must be “especially rigorous.” Id.
(quoting Raines v. Byrd, 521 U.S. 811, 819-20 (1997)).
The power of federal courts to hear cases “is not an unconditioned authority to determine the constitutionality
of legislative or executive acts.” Valley Forge Christian Coll. v. Am. Utd. for Sep. of Church and State, Inc.,
454 U.S. 464, 471 (1982).
As the plaintiff, the House “bear[s] the burden of establishing standing.” Commonwealth v. U.S. Dep’t of
Educ., 340 F. Supp. 3d 7, 12 (D.D.C. 2018). The Court
“presumes that it lacks jurisdiction unless the contrary

32a
appears affirmatively from the record.” Id. (cleaned
up). To establish standing, the House must allege an
injury that is “concrete, particularized, and actual or imminent; fairly traceable to the challenged action; and redressable by a favorable ruling.” Clapper, 568 U.S. at
409. For an injury to be legally cognizable, the dispute
must be “traditionally thought to be capable of resolution through the judicial process.” Raines, 521 U.S. at
819.
III.

The Administration concedes, and the Court agrees,
that only the first prong of the standing analysis—injury that is concrete and particularized—is at issue here.
See Defs.’ Opp. at 28-43. Applying the “especially rigorous” analysis required, the Court finds that the House
has failed to allege such an injury. So the Court must
deny the House’s motion.
A.

Two Supreme Court decisions—Raines and Arizona
State Legislature v. Arizona Independent Redistricting
Commission, 135 S. Ct. 2652 (2015)—guide the Court’s
inquiry. Neither directly addresses whether one House
of Congress has standing to allege an institutional injury
to the Appropriations power. Perhaps unsurprisingly,
while the House urges the Court to conclude that this
case is more like one (Arizona State Legislature), the
Administration believes this case is more like the other
(Raines).
In Raines, six federal legislators sued to contest the
constitutionality of the Line Item Veto Act. See 521
U.S. at 813-14. The plaintiffs had voted against it. Id.
at 814. They sued the Executive Branch, arguing that

33a
the Act “unconstitutionally expands the President’s
power,” “divests the [legislators] of their constitutional
role in the repeal of legislation,” and “alters the constitutional balance of powers.” Id. at 816. They claimed,
in other words, that “the Act causes a type of institutional injury (the diminution of legislative power), which
necessarily damages all Members of Congress and both
Houses of Congress equally.” Id. at 821.
The Supreme Court found that the legislators lacked
standing. Beginning its analysis, it emphasized the “timehonored concern about keeping the Judiciary’s power
within its proper constitutional sphere.” Id. at 820.
That concern required it to “carefully inquire” about
whether the legislators’ “claimed injury is personal, particularized, concrete, and otherwise judicially cognizable.” Id. The Court concluded that it was not. Id. at
830.
The legislators could not allege that “the Act will nullify their votes,” the Court explained, because “[i]n the
future, a majority of Senators and Congressmen can
pass or reject appropriations bills; the Act has no effect
on this process.” Id. at 824. Their votes on the Act
itself “were given full effect.” Id. “They simply lost
that vote.” Id. It therefore held that “these individual members of Congress do not have a sufficient ‘personal stake’ in this dispute and have not alleged a sufficiently concrete injury to have established Article III
standing.” Id. at 830.
By contrast, in Arizona State Legislature, the Supreme Court held that a state legislature had standing
to challenge the constitutionality of a proposition adopted
by Arizona’s voters by referendum. See 135 S. Ct. at

34a
2659. Proposition 106 amended the Arizona Constitution to remove redistricting authority from the legislature and vest it in an independent commission. Id. at
2658. The legislature alleged that the Proposition violated its authority under the Elections Clause of the U.S.
Constitution, which provides that the “Times, Places and
Manner of holding Elections for Senators and Representatives, shall be prescribed in each State by the Legislature thereof.” U.S. Const. art. I, § 4, cl. 1.
The Court characterized the Arizona Legislature as
“an institutional plaintiff asserting an institutional injury,” that “commenced this action after authorizing
votes in both of its chambers.” Ariz. State Leg., 135
S. Ct. at 2664. It noted that Arizona’s constitution prohibits the legislature from “adopt[ing] any measure that
supersedes a [voter-initiated proposition]” unless the
measure “furthers the purposes of the initiative.” Id.
This limitation, when combined with Proposition 106,
would “completely nullify” any vote by the state’s legislature, “now or in the future,” that purported to adopt a
redistricting plan. Id. at 2665. The Court thus concluded that the legislature had standing. Id.
B.

Read together, Raines and Arizona State Legislature create a spectrum of sorts. On one end, individual
legislators lack standing to allege a generalized harm to
Congress’s Article I power. On the other end, both
chambers of a state legislature do have standing to challenge a nullification of their legislative authority brought
about through a referendum.
The House sees this case as largely indistinguishable
from Arizona State Legislature. It alleges that the

35a
Administration’s “usurpation” of the Appropriations
power “inflicts a significant harm to the House as an institution.” Pl.’s Mot. at 32. Permitting the Administration to “offend the Appropriations Clause” by spending
funds in an unauthorized way would “affect the balance
of powers in a manner that puts the House at a severe
disadvantage within our system of government.” Id. at
33. This form of institutional injury has, in the House’s
view, “consistently” been recognized as conferring standing upon institutional plaintiffs. Id.
But, as the Administration notes, the holding in Arizona State Legislature is narrower than the House suggests. See Defs.’ Opp. at 40-41. The Supreme Court
emphasized that its holding “does not touch or concern
the question whether Congress has standing to bring a
suit against the President.” Ariz. State Leg., 135 S. Ct.
at 2665 n.12. It explained that there is “no federal analogue to Arizona’s initiative power, and a suit between
Congress and the President would raise separation-ofpowers concerns absent here.” Id. The Administration also highlights that here, “[o]nly the House of Representatives has initiated this action.” Defs.’ Opp. at
41 n.7. The Arizona Legislature, however, filed its suit
after authorizing votes in both of its chambers. Id. (citing Ariz. State Leg., 135 S. Ct. at 2664).
For its part, the House questions the relevance of
Raines. There, “only six Members of Congress” alleged
a “wholly abstract and widely dispersed” injury. Pl.’s
Reply in Supp. of Its Mot. for Prelim. Inj. (“Pl.’s Reply”), ECF No. 45 at 12. And both Houses of Congress
“actively opposed” the lawsuit. Id. This is why, the
House argues, Arizona State Legislature described
Raines as “holding specifically and only that individual

36a
members of Congress lack Article III standing” to
allege a nullification of their legislative power. Id. at
12-13 (quoting Ariz. State Leg., 135 S. Ct. at 2664). See
also Amicus Br. of Former General Counsels of the U.S.
House of Reps. (“Former General Counsels’ Amicus
Br.”), ECF No. 35 at 18 (“Raines and its progeny are
simply inapplicable here, where the House not only has
authorized the lawsuit but also itself appears as a litigant seeking to vindicate its institutional interests.”).
This case falls somewhere in the middle of these two
lodestars. Both therefore guide the Court’s analysis.
But, as explained below, the factors considered by the
Raines Court are more relevant here. Application of
these factors reveals that the House lacks standing to
challenge the Administration’s actions.
1.

Consider first historical practice and precedent. As
the Raines Court explained, it is “evident from several
episodes in our history that in analogous confrontations
between one or both Houses of Congress and the Executive Branch, no suit was brought on the basis of claimed
injury to official authority or power.” Raines, 521 U.S.
at 826. 3

Arizona State Legislature does not discuss the importance of historical practice in the context of legislative standing. That case,
however, did not “touch or concern the question whether Congress
has standing to bring a suit against the President,” and it suggested
that when this question arises, an “especially rigorous” standing analysis is required. 135 S. Ct. at 2665 n.12. This more exacting inquiry
requires consideration of historical practice, as evidenced by the discussion in Raines.
3

37a
For example, Congress passed the Tenure of Office
Act over President Andrew Johnson’s veto in 1867. Id.
The Act provided that if an Executive Branch official’s
appointment required confirmation by the Senate, the
President could not remove him without the Senate’s
consent. Id. Undeterred, President Johnson fired
his Secretary of War. Id. A week later, the House
impeached the President, but the Senate acquitted him.
Id.
Arguably, either the President could have sued Congress over the constitutionality of the Act or Congress
could have sued the President for violating it. Yet neither occurred. Had a federal court “entertained an action to adjudicate the constitutionality of the Tenure of
Office Act immediately after its passage in 1867” it
would have “been improperly and unnecessarily plunged
into the bitter political battle being waged between the
President and Congress.” Id. at 827. So too here.
Similar episodes abound throughout our history. In
1933, President Franklin D. Roosevelt fired an official
from his Senate-confirmed position at the Federal Trade
Commission. The Federal Trade Commission Act permitted removal only for “inefficiency, neglect of duty, or
malfeasance in office.” Humphrey’s Ex’r v. United
States, 295 U.S. 602, 619 (1935). The President removed
the official without providing a reason. Id. The Senate likely had a “strong[] claim of diminution of ” its Advice and Consent power. Raines, 521 U.S. at 826. Yet
the Senate made no effort to challenge this action in
court.
In INS v. Chadha, 462 U.S. 919 (1983), a private plaintiff sought judicial review of his deportation order claiming the Immigration and Nationality Act’s one-House

38a
veto was unconstitutional. Under a diminution of institutional power theory, the “Attorney General would
have had standing to challenge the one-House veto provision because it rendered his authority provisional rather than final.” Raines, 521 U.S. at 828. But the Executive brought no such suit.
And, applying the same line of reasoning, Congress
could have challenged the validity of presidential pocket
vetoes, first exercised by President Madison in 1812.
But the pocket veto went unchallenged for over 100 years
until President Coolidge pocketed a bill expanding Indian tribes’ rights to damages for lost tribal lands and
certain tribes sued. See The Pocket Veto Case, 279 U.S.
655, 673 (1929). See also Tara L. Grove et al., Congress’s (Limited) Power to Represent Itself in Court, 99
Cornell L. Rev. 571, 583-93 (2014) (discussing these and
many other times when Congress declined to seek judicial intervention in the face of the Executive’s nondefense of or alleged non-compliance with a federal law).
More still, the Administration notes that, “when Congress was concerned about unauthorized Executive
Branch spending in the aftermath of World War I, it responded not by threatening litigation, but by creating
the General Accounting Office . . . to provide independent oversight of the Executive Branch’s use of appropriated funds.” Defs.’ Opp. at 38.
This history is persuasive. In the 230 years since the
Constitution was ratified, the political branches have entered many rancorous fights over budgets and spending
priorities. These fights have shut the Federal Government down 21 times since 1976, when Congress enacted
the modern-day budget process. See Mihir Zaveri
et al., The Government Shutdown was the Longest Ever.

39a
Here’s the History., N.Y. Times (Jan. 25, 2019). Given
these clashes, the paucity of lawsuits by Congress
against the Executive would be remarkable if an alleged
injury to the Appropriations power conferred Article III
standing upon the legislature. See United States v.
Windsor, 570 U.S. 744, 790 (2013) (Scalia, J., dissenting)
(remarking that the “famous, decades-long disputes between the President and Congress [discussed in Raines]
. . . would surely have been promptly resolved by a
Congress-vs.-the-President lawsuit if the impairment of
a branch’s powers alone conferred standing to commence litigation”). Indeed, no appellate court has ever
adjudicated such a suit.
The House points to cases from this Circuit purportedly supporting the view that legislatures have standing
to seek redress for this type of injury. Pl.’s Mot. at 33.
Not so.
True, the D.C. Circuit has held that the “House as a
whole has standing to assert its investigatory power.”
United States v. AT&T, 551 F.2d 384, 391 (D.C. Cir.
1976) (emphasis added). See also Comm. on the Judiciary v. Miers, 558 F. Supp. 2d 53 (D.D.C. 2008) (finding
that the House has standing to assert investigatory and
oversight authority); Comm. on Oversight & Gov’t Reform v. Holder, 979 F. Supp. 2d 1 (D.D.C. 2013) (same).
But whatever these cases may suggest about the House’s
ability to hale the Executive into court in the context of
investigations, or the scope of this ability, they are of
little use to the House here.
Indeed, using the Judiciary to vindicate the House’s
investigatory power is constitutionally distinct from seeking Article III standing for a supposed harm to Con-

40a
gress’s Appropriations power. Unlike the Appropriations power, which requires bicameralism and presentment, the investigatory power is one of the few under
the Constitution that each House of Congress may exercise individually. See U.S. Const. art. I, § 5 (“Each
House may determine the Rules of its Proceedings”); see
also Congress’s (Limited) Power to Represent Itself in
Court, 99 Cornell L. Rev. at 596-97 (noting that “the
House and the Senate have long asserted the power to
conduct investigations and handle any litigation arising
out of those investigations,” while they have not historically brought suits to enforce federal statutes).
It is perhaps for this reason that the House’s power
to investigate has been enforced with periodic help from
federal courts. In 1927, for instance, the Supreme Court
observed that a “legislative body cannot legislate wisely
or effectively in the absence of information respecting
the conditions which the legislation is intended to affect
or change.” McGrain v. Daugherty, 273 U.S. 135, 175
(1927). Thirty years later, the Court affirmed that the
power to investigate is “inherent in the legislative process” and is “broad.” Watkins v. United States, 354 U.S.
178, 187 (1957). See also Miers, 558 F. Supp. 2d at 56
(noting that vindicating the House’s investigatory power
“involves a basic judicial task—subpoena enforcement
—with which federal courts are very familiar”).
And the House has, since the Founding era, exercised
an independent power to conduct investigations and
gather information. In 1792, it established a committee to examine General St. Clair’s defeat at the Battle of
the Wabash, a failed raid by the U.S. Army against Native Americans residing in the Northwest Territory.
See 3 Annals of Cong. 494 (1792). Before complying

41a
with its requests for papers and records, President George
Washington and his cabinet members, including Thomas
Jefferson and Alexander Hamilton, concluded that “the
House could conduct an inquest, institute inquiries, and
call for papers.” Congress’s (Limited) Power to Represent Itself in Court, 99 Cornell L. Rev. at 598-99. This
history of judicial and executive recognition of the
House’s investigatory power distinguishes it from the
Appropriations power. Standing based on the Appropriations power would be a very different matter. 4
During oral argument, the House also suggested that
U.S. House of Representatives v. U.S. Department of
Commerce, 11 F. Supp. 2d 76 (D.D.C. 1998), provides an
example of courts’ willingness to recognize standing in
similar contexts. Hr’g Tr. 6:12:23. Not so. There,
the House had standing to argue that the Census Bureau’s “statistical sampling will deprive Congress of information it is entitled to by statute (and the Constitution), and must have in order to perform its mandatory
constitutional duty—the apportionment of Representatives among the states.” U.S. Dep’t of Commerce, 11
F. Supp. 2d at 85. In other words, the “inability to receive information which a person is entitled to by law” is
“sufficiently concrete and particular to satisfy constitutional standing requirements.” Id. This type of informational injury, which an individual can allege, is
conceptually distinct from the “institutional” harm to an
The Administration contends that the “scattered cases involving congressional subpoena enforcement are likewise incorrect and
inconsistent with the Constitution’s fundamental design, as well as
irreconcilable with Raines.” Defs.’ Opp. at 42. But because the
Court finds that the House’s investigatory power is distinct from
Congress’s Appropriations power, it need not address this argument.
4

42a
“institutional plaintiff ” the House asks the Court to recognize here. More, informational injuries to Congress
arise “primarily in subpoena enforcement cases,” which
hold that the legislature “has standing to assert its investigatory power.” Id. at 86. 5
This leaves the House with a single, non-precedential
case in its support. In U.S. House of Representatives
v. Burwell, the House alleged that the Executive Branch
“spent billions of unappropriated dollars to support
the Patient Protection and Affordable Care Act.” 130
F. Supp. 3d 53, 57 (D.D.C. 2015). This spending, the
House alleged, “usurped its Article I legislative authority.” Id. at 63.
The Burwell court held that the House had standing
to sue on this “Non-Appropriation Theory,” as it would
5
The House relied on two other cases at the hearing to suggest
that the Supreme Court is “perfectly comfortable” resolving claims
of the type it raises. Hr’g Tr. 11:19-12:4. Neither case lends the
House’s position much support.

In the first, Chadha, the Court noted that, before Congress sought
to intervene to defend its veto power, “there was adequate Art[icle]
III adverseness even though the only parties were the INS and
Chadha.” 462 U.S. at 939. True, the Court suggested that “Congress is the proper party to defend the validity of a statute when an
agency of government . . . agrees with plaintiffs that the statute
is inapplicable or unconstitutional.” Id. at 940. But this statement arose in the context of “prudential, as opposed to Art[icle] III,
concerns” about hearing the merits of the parties’ claims. Id.
In the second, Zivotofsky ex rel. Zivotofsky v. Clinton, 566 U.S. 189
(2012), the Court held that the political question doctrine did not bar
judicial review of a private plaintiff ’s claim against the Executive
Branch. Id. at 191. Both Chadha and Zivotofsky, in other words,
featured private plaintiffs seeking to vindicate their rights. And
neither case held that one House of Congress has standing to allege
harm to its Appropriations power.

43a
“suffer a concrete, particularized injury if the Executive
were able to draw funds from the Treasury without a
valid appropriation.” Id. at 74. The court distinguished “constitutional violations,” which it found supported institutional standing, from “statutory violations,” which it concluded did not. Id. Based on this
dichotomy, it dismissed some claims but allowed others
to proceed. See id.
This slender reed will not sustain the House’s burden. As Burwell itself shows, it can be difficult to articulate a workable and consistent distinction between
“constitutional” and “statutory” violations for legislative
standing. There, Counts I and II of the House’s complaint both alleged violations of constitutional provisions. Even so, the court dismissed Count II but permitted Count I to survive, because the former’s allegations were “far more general” than the latter’s. Id.
More, as Burwell notes, if “the invocation of Article
I’s general grant of legislative authority to Congress
were enough to turn every instance of the Executive’s
statutory non-compliance into a constitutional violation,
there would not be decades of precedent for the proposition that Congress lacks standing to affect the implementation of federal law.” Id. (citing Bowsher, 478
U.S. at 722). But any claim about a violation of the Appropriation power would “inevitably involve some statutory analysis,” as the Administration’s “primary defense
will be that an appropriation has been made, which will
require reading the statute.” Id. at 74 n.24 (emphasis
in original).

44a
Applying Burwell to the facts here would clash with
binding precedent holding that Congress may not invoke the courts’ jurisdiction to attack the execution of
federal laws. See, e.g., Lujan v. Defenders of Wildlife,
504 U.S. 555, 577 (1992) (“To permit Congress to convert
the undifferentiated public interest in executive officers’
compliance with the law into an individual right vindicable in the courts is to permit Congress to transfer from
the President to the courts the Chief Executive’s most
important constitutional duty, to ‘take Care that the
Laws be faithfully executed,’ Art. II, § 3.”). The Court
thus declines to do so. 6

More still, even if the Court were to apply the Burwell approach,
it is far from certain that the case would survive. Count III of the
House’s Complaint, for instance, alleges that the Administration’s
planned spending violates the APA. Compl. 42. This Count claims,
in part, that the Administration’s actions would be “ ‘in excess of statutory, jurisdiction, authority, or limitations, or short of statutory
right.’ ” Id. at 43 (quoting APA § 706(2)(C)). Whether the Administration has fallen afoul of this provision of the APA is a “statutory
and not constitutional” question that concerns “the implementation,
interpretation, or execution of federal statutory law.” Burwell, 130
F. Supp. 3d at 74. The House would thus lack standing to allege
this part of Count III, as it does not “seek redress for constitutional
violations.” Id. (emphasis in original). The remaining counts allege both statutory and constitutional allegations, not dissimilar to
the count Burwell dismissed. See Compl. 39-42.
6

Additionally, Burwell emphasized that the Administration “conceded that there was no 2014 statute appropriating new money” for
its planned expenditure. 130 F. Supp. 3d at 63. The Administration made no such concession about the lack of an applicable appropriations authority here. The lack of this concession complicates
any effort to distinguish an alleged “constitutional” violation from a
“statutory” one. Because the Court declines to apply Burwell, it
need not resolve this issue.

45a
In short, like in Raines, the Court finds the lack of
historical examples telling. The Executive and Legislative Branches have resolved their spending disputes
without enlisting courts’ aid. Until now. The House thus
“lack[s] support from precedent,” and “historical practice appears to cut against [it] as well.” Raines, 521
U.S. at 826.
2.

The availability of institutional remedies also militates against finding that the House has standing. The
notion that nullification of a legislature’s power can support institutional standing, expressed in both Raines
and Arizona State Legislature, comes from Coleman v.
Miller, 307 U.S 433 (1939). 7 Id. There, the Kansas
Legislature had rejected Congress’s proposed Child Labor Amendment to the U.S. Constitution. Coleman,
307 U.S. at 435. Later, a state senator introduced a
resolution to ratify the amendment. Id. at 435-36.
The state senators’ votes split evenly, so the lieutenant
governor purported to cast a tie-breaking vote for the
resolution. Id. at 436. The state’s house of representatives then adopted the resolution. Id.
The senators who voted against, and three members
of the state’s house, sued in the Kansas Supreme Court
to block the resolution from taking effect. Id. After
the state’s high court found that the lieutenant governor
could legally cast the deciding vote, the legislators asked

The House does not rely on, or even cite, Coleman in its application for a preliminary injunction. See generally Pl.’s Mot. But the
holding and reasoning in Coleman animates much of the analysis in
Arizona State Legislature and thus merits brief discussion here.
7

46a
the U.S. Supreme Court to review and reverse the judgment. Id. at 437.
The Court held that the legislators had standing to
challenge the state court’s decision. It found that, assuming the truth of their allegations, their votes against
ratifying the amendment had “been overridden and virtually held for naught.” Id. at 438. Thus, because they
had a “plain, direct and adequate interest in maintaining
the effectiveness of their votes,” the legislators fell “directly within the provisions of the statute governing [the
Supreme Court’s] appellate jurisdiction.” Id. The plaintiffs in Coleman, in other words, had no other recourse
but to turn to federal court.
So too in Arizona State Legislature. There, the Court
found that the voter-adopted constitutional amendment
“would completely nullify any vote by the Legislature,
now or in the future.” 135 S. Ct. at 2665 (cleaned up).
Because of this, the Court concluded that judicial resolution of the legislature’s claims was appropriate. Id.
at 2665-66.
Not so in Raines. There, the Court noted that dismissal “neither deprives Members of Congress an adequate remedy (since they may repeal the Act or exempt
appropriations bills from its reach), nor forecloses the
Act from constitutional challenge (by someone who suffers judicially cognizable injury as a result of the Act).”
Id. at 829. It clarified that, “at most,” Coleman means
that “legislators whose votes would have been sufficient
to defeat (or enact) a specific legislative Act have standing to sue . . . on the ground that their votes have
been completely nullified.” Id. at 823. No such nullification, the Court held, had been alleged by the six legislators. Id. The Court thus concluded that there is

47a
“a vast difference between the level of vote nullification
at issue in Coleman and the abstract dilution of institutional legislative power that is alleged here.” Id. at
826.
Again, Raines is the more salient precedent. The
House urges that “Congress’s authority under the [Appropriations] Clause is absolute for good reason.” Pl.’s
Mot. at 31. The Court agrees. It is no doubt true that
Congress “should possess the power to decide how and
when any money should be” spent by the Federal Government. OPM v. Richmond, 496 U.S. 414, 427 (1990).
“If it were otherwise, the executive would possess an unbounded power over the public purse of the nation; and
might apply all its moneyed resources at his pleasure.”
Id.
But like the plaintiffs in Raines, the House retains
the institutional tools necessary to remedy any harm
caused to this power by the Administration’s actions.
Its Members can, with a two-thirds majority, override
the President’s veto of the resolution voiding the National Emergency Declaration. They did not. It can
amend appropriations laws to expressly restrict the
transfer or spending of funds for a border wall under
Sections 284 and 2808. Indeed, it appears to be doing
so. See ECF No. 36-9 at 3-4 (describing a proposed FY
2020 appropriation stating that “none of the funds appropriated in this or any other Act for a military construction project . . . may be obligated, expended,
or used to design, construct, or carry out a project to
construct a wall, barrier, fence, or road along the Southern border of the United States”). And Congress “may
always exercise its power to expand recoveries” for any

48a
private parties harmed by the Administration’s actions.
OPM, 496 U.S. at 428.
More still, the House can hold hearings on the Administration’s spending decisions. As it has recently
shown, the House is more than capable of investigating
conduct by the Executive. See, e.g., Alex Moe, House
Investigations of Trump and his Administration: The
Full List, NBC News (Mar. 27, 2019) (detailing “at least
50” ongoing House investigations into the President,
federal agencies, and members of the Administration).
And it has other tools it can use against Officers of the
Executive Branch for perceived abuses of their authority.
The House believes it has exhausted the institutional
remedies at its disposal. See Hr’g Tr. 14:19-15:6 (contending that “the House did exactly what the political
weaponry tells it to do”). See also Former General
Counsels’ Amicus Br. at 22 (“Congress has used all of
the political tools in its box”); id. at 23 (noting that “any
new legislation here would require two-thirds majorit[ies] in both the House and Senate to overcome the
President’s veto, and so would be an exercise not only in
redundancy but also futility”). But that the House majority may lack the votes to pass a resolution over the
President’s veto does not, by itself, confer standing on
the legislators who would like to see the resolution enacted. To hold otherwise would likely place “the Constitution’s entirely anticipated political arm wrestling
into permanent judicial receivership[, which] does not do
the system a favor.” Windsor, 570 U.S. at 791 (Scalia, J.,
dissenting).
The availability of these institutional remedies shows
that there is no “complete nullification” of the House’s

49a
power. Considering the type of lawmaking at issue
emphasizes this point. As the D.C. Circuit has noted,
the “key to understanding the [Supreme Court’s] treatment of Coleman and its use of the word nullification is
its implicit recognition that a ratification vote on a constitutional amendment is an unusual situation.” Campbell v. Clinton, 203 F.3d 19, 22 (D.C. Cir. 2000). Once
the amendment passed, “[i]t is not at all clear whether”
the legislature “could have done anything to reverse
that position.” Id. at 22-23. 8

Coleman may in fact be best understood as a case about the Supreme Court’s jurisdiction to review the decisions of state courts rather than to the ability of the Judiciary to hear suits between the coequal political branches of the Federal Government. Recall that
the plaintiffs first sued in state court before seeking to invoke the
Supreme Court’s appellate jurisdiction. See Coleman, 307 U.S. at
446. The Court did not suggest that the plaintiffs would have had
jurisdiction to bring their claims directly to federal court. Indeed, as
Justice Frankfurter observed, “[c]learly a Kansan legislator would
have no standing had he brought suit in a federal court.” Id. at 465
(Frankfurter, J., dissenting). No Justice disagreed with him.
8

When it issued, scholars and commentators viewed Coleman as part
of a then-ongoing debate over the scope of the Court’s ability to review the decisions on federal law made by state courts. See, e.g.,
James Wm. Moore et al., The Supreme Court: 1938 Term II. RuleMaking, Jurisdiction and Administrative Review, 26 Va. L. Rev.
679, 706-07 (1940) (suggesting that Coleman was “consistent with
earlier cases” because it held that the legislators could “invoke the
appellate jurisdiction of the Supreme Court, although they would not
have had standing to sue initially in the federal courts”); see also
Raines, 521 U.S. at 832 n.3 (Souter, J., concurring). That debate is
over, and the “same standing requirements” now apply “both at trial
and on appeal to any Article III court.” Tara L. Grove, Government Standing and the Fallacy of Institutional Injury, forthcoming

50a
The House does not allege that it is powerless to legislate in the future. Nor does it suggest that appropriations bills are unusual in the way the constitutional
amendment in Coleman or the referendum in Arizona
State Legislature might have been. Rather, it argues
that the Administration’s planned expenditures violate
the Appropriations Clause because the Administration
is interpreting Sections 284 and 2808 incorrectly. But
like in Raines, the House “may repeal” or amend these
laws or “exempt [future] appropriations” from the Administration’s reach. Raines, 521 U.S. at 829. Thus,
it has not alleged that the Administration’s actions have
nullified its legislative power. And it is therefore the
political tools the Constitution provides, rather than the
federal courts, to which the House must turn to combat
the Administration’s planned spending. 9
3.

Lastly, Raines and Arizona State Legislature caution federal courts to consider the underlying separationof-powers implications of finding standing when one political branch of the Federal Government sues another.
See Ariz. State Leg., 135 S. Ct. 2665 n.12; Raines, 521
U.S. at 820 (“the law of Art. III standing is built on a
single idea—the separation of powers”). Respect for
167 U. Pa. L. Rev.
at *40 (2019). The basis on which the Coleman legislators had standing then does not supply the House a basis
for asserting standing today.
9
One other distinction between this case and Arizona State
Legislature merits mention. Here, the House’s claims are not being brought by both chambers of the legislature. While the House
is correct that its allegations are less disparate and diluted than
those brought by the Raines plaintiffs, these allegations are also less
concrete and particularized than those brought by the united legislature in Arizona State Legislature.

51a
the doctrine of separation of powers “requires the Judicial Branch to exercise restraint in deciding constitutional issues by resolving those implicating the powers
of the three branches of Government as a ‘last resort.’ ”
Raines, 521 U.S. at 833 (Souter, J., concurring).
Were it to rule on the merits of this case, the Court
would not be deciding constitutional issues as a “last resort.” Id. Instead, intervening in a contest between
the House and the President over the border wall would
entangle the Court “in a power contest nearly at the
height of its political tension” and would “risk damaging
the public confidence that is vital to the functioning of
the Judicial Branch.” Id.
As discussed above, Congress has several political arrows in its quiver to counter perceived threats to its
sphere of power. These tools show that this lawsuit is
not a last resort for the House. And this fact is also
exemplified by the many other cases across the country
challenging the Administration’s planned construction
of the border wall. Cf. Raines, 521 U.S. at 534 (Souter,
J., concurring) (“The virtue of waiting for a private suit
is only confirmed by the certainty that another suit can
come to us.”).
In some of these lawsuits, including two before this
Court, private plaintiffs have disputed the legality of the
President’s declaration of a national emergency and
the Administration’s ability to use Sections 284 and 2808
to build the wall. See Ctr. for Biological Diversity v.
Trump, No. 19-cv-408 (D.D.C. 2019); Rio Grande Int’l
Study Ctr. v. Trump, No. 19-cv-720 (D.D.C. 2019). The
plaintiffs in both cases specifically allege that the Administration’s planned expenditures violate the Appropriations Clause. See, e.g., Compl., No. 19-cv-720, ECF

52a
No. 1 at 38; Compl., No. 19-cv-408, ECF No. 1 at 35-36.
The House is free to seek leave to file briefs as amicus
curiae in these suits.
In fact, it has done so in a related matter in the
Northern District of California. See Br. of Amicus Curiae, Sierra Club v. Trump (“House Sierra Club Br.”),
No. 4:19-cv-892 (N.D. Cal. 2019), ECF No. 47. There,
two citizens’ groups sought a preliminary injunction
against the Administration to prevent it from using the
Sections 284 and 2808 funds to build the wall. See Sierra Club v. Trump, No. 4:19-cv-892, 2019 WL 2247689
(N.D. Cal. May 24, 2019). As amicus curiae, the House
too, urged the court to enjoin the Administration, raising many of the contentions it did before this Court.
See House Sierra Club Br. at 3-17. The Sierra Club
court granted the citizens’ groups a partial injunction
and enjoined the Administration “from taking any action to construct a border barrier” along the southern
border using Section 284 funds. Sierra Club, 2019 WL
2247689 at *30.
An old maxim in politics holds that, “Where you stand
depends on where you sit.” See Rufus E. Miles, Jr.,
The Origin and Meaning of Miles’ Law, 38 Pub. Admin.
Rev. 399 (1978). At law too, whether a plaintiff has
standing often depends on where he sits. A seat in
Congress comes with many prerogatives, but legal
standing to superintend the execution of laws is not
among them.
As Chief Justice Marshall explained, the “province of
the [C]ourt is, solely, to decide on the rights of individuals, not to enquire how the executive, or executive officers, perform duties in which they have a discretion.”
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 170 (1803).

53a
The “irreplaceable value” of the Judiciary’s power “lies
in the protection it has afforded the constitutional rights
and liberties of individual citizens and minority groups
against oppressive or discriminatory government action.” Raines, 521 U.S. at 829 (quoting United States
v. Richardson, 418 U.S. 166, 192 (1974) (Powell, J., concurring)) (emphasis added). It is “this role, not some
amorphous, general supervision of the operations of government,” that permits the “countermajoritarian implications” of judicial review to coexist with the “democratic principles upon which” the Founders built the
Federal Government. Id. Mindful of these admonitions, the Court declines to take sides in this fight between the House and the President. 10

Based on the D.C. Circuit’s reading of Raines, the Court includes this separation-of-powers discussion as a part of its standing
analysis. See Chenoweth v. Clinton, 181 F.3d 112, 116 (D.C. Cir.
1999) (suggesting that Raines may “require us to merge our separation of powers and standing analyses”). Before Raines, the D.C.
Circuit had upheld a district court’s dismissal on equitable grounds
of an inter-branch controversy that raised significant separation-ofpowers concerns. See Moore v. U.S. House of Representatives,
733 F.2d 946 (D.C. Cir. 1984).
The House urges the Court not to apply this “doctrine of equitable
discretion,” as it has rarely been used in recent years. Pl.’s Reply
at 22. But the Circuit has not found that Raines formally overruled
the Moore approach. See Chenoweth, 181 F.3d at 116 (“Raines notwithstanding, Moore . . . may remain good law, in part, but not
in any way that is helpful to the plaintiff Representatives. Whatever Moore gives the Representatives under the rubric of standing,
it takes away as a matter of equitable discretion.”). Here, as in
Chenoweth, the parties’ dispute is “fully susceptible to political resolution” on either jurisdictional or prudential grounds. Id.
10

54a
IV.

This case presents a close question about the appropriate role of the Judiciary in resolving disputes between the other two branches of the Federal Government. To be clear, the Court does not imply that Congress may never sue the Executive to protect its powers.
But considering the House’s burden to establish it has
standing, the lack of any binding precedent showing that
it does, and the teachings of Raines and Arizona State
Legislature, the Court cannot assume jurisdiction to
proceed to the merits. For these reasons, it will deny
the House’s motion. A separate Order accompanies
this Opinion.
Dated:

June 3, 2019

55a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

Case No. 1:19-cv-00969 (TNM)
U.S. HOUSE OF REPRESENTATIVES, PLAINTIFF
v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE U.S. DEPARTMENT OF THE
TREASURY, ET AL., DEFENDANTS
Filed:

June 17, 2019
ORDER

Upon consideration of the Plaintiff ’s Unopposed Motion for Leave to File an Amended Complaint and Request for an Order Denying Injunctive Relief and For
Entry of Judgment, ECF No. 51, it is hereby
ORDERED that the Plaintiff ’s Motion is GRANTED;

it is further

ORDERED that the Amended Complaint is deemed
filed with the Court upon entry of this Order; it is further
ORDERED that the Plaintiff ’s request for an order
denying preliminary and permanent injunctive relief
with respect to the Administration’s transfer of funds
under Section 9002 of the 2019 Department of Defense

56a
Appropriations Act for purposes of constructing a border wall is hereby GRANTED. The Court holds that
the House does not have standing to assert claims and
seek relief with respect to Section 9002 for the reasons
set forth in the Court’s Memorandum Opinion dated
June 3, 2019 (ECF No. 54); and it is further
ORDERED that the Plaintiff ’s request for entry of final judgment is GRANTED. The Clerk of the Court

shall prepare and enter judgment in this matter pursuant to Federal Rule of Civil Procedure 58.
SO ORDERED.

Dated:

June 17, 2019

57a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5176
September Term, 2020
1:19-cv-00969-TNM
UNITED STATES HOUSE OF REPRESENTATIVES,
APPELLANT

v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
THE TREASURY, ET AL., APPELLEES
Filed:

Jan. 13, 2021
ORDER

Before:

SRINIVASAN , Chief Judge; HENDERSON,
ROGERS, TATEL, GARLAND*, MILLETT, PILLARD, WIL*
*
**
KINS, KATSAS , RAO , and WALKER , Circuit Judges; and
SENTELLE, Senior Circuit Judge
Upon consideration of appellees’ petition for rehearing en banc, the response thereto, and the absence of a

Circuit Judges Garland, Katsas, and Rao did not participate in
this matter.
**
A statement by Circuit Judge Walker, concurring in the denial of
rehearing en banc, is attached.
*

58a
request by any member of the court for a vote, it is ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:

Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Walker, Circuit Judge, concurring: “For over two
hundred years, the coordinate branches did not enlist
the Judiciary in their fights.” Committee on the Judiciary of the United States House of Representatives v.
McGahn, 968 F.3d 755, 779 (D.C. Cir. 2020) (en banc)
(Henderson, J., dissenting). But in McGahn, this court
embraced “judicial superintendence” over routine political disputes. Id. at 792 (Griffith, J., dissenting). And
because McGahn was en banc, reviewing the panel’s
thoughtful decision in this case would be unproductive.
I therefore respectfully concur in the denial of en banc
review.

59a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5176
UNITED STATES HOUSE OF REPRESENTATIVES,
APPELLANT

v.
STEVEN T. MNUCHIN, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE UNITED STATES DEPARTMENT OF
THE TREASURY, ET AL., APPELLEES
Argued: Apr. 28, 2020
Decided: Aug. 7, 2020
On Rehearing En Banc
ORDER

Before: SRINIVASAN, Chief Judge, HENDERSON**,
ROGERS, TATEL, GARLAND, GRIFFITH**, MILLETT, PIL*
*
LARD, WILKINS, KATSAS and RAO , Circuit Judges.

Circuit Judges Katsas and Rao did not participate in this matter.
A statement by Circuit Judge Henderson, with whom Circuit
Judge Griffith joins, dissenting from the order remanding the case,
is attached.
**
A statement by Circuit Judge Griffith, with whom Circuit Judge
Henderson joins, dissenting from the order remanding the case, is
attached.
*

**

60a
On March 13, 2020, a majority of the judges eligible
to participate voted to rehear this case en banc together
with Committee on the Judiciary of the U.S. House of
Representatives v. McGahn, No. 19-5331, to consider
the “common issue of Article III standing presented” in
both cases. See Order at 1, U.S. House of Representatives v. Mnuchin, No. 19-5176 (D.C. Cir. Mar. 13, 2020).
The en banc court’s decision in McGahn resolves that
common issue by holding that there is no general bar
against the House of Representatives’ standing in all
cases involving purely interbranch disputes. See Committee on the Judiciary of the U.S. House of Representatives v. McGahn, No. 19-5331 (D.C. Cir. Aug. 7, 2020)
(en banc). Accordingly, it is
ORDERED that this case be remanded to the original

panel for further consideration in light of McGahn.
See Al Bahlul v. United States, 767 F.3d 1, 31 (D.C. Cir.
2014) (en banc) (remanding case to panel to consider
outstanding questions); United States v. McCoy, 313
F.3d 561, 562 (D.C. Cir. 2002) (en banc) (same).
Per Curiam
FOR THE COURT:

Mark J. Langer, Clerk
BY:

Michael C. McGrail
Deputy Clerk

61a
KAREN LECRAFT HENDERSON, Circuit Judge, with
whom Circuit Judge GRIFFITH joins, dissenting: After
the Committee on the Judiciary of the United States
House of Representatives timely petitioned for rehearing en banc in McGahn, the Mnuchin panel sua sponte
asked the full court to take up that case as well to resolve
“the common issue of Article III standing.” Order
at 1, U.S. House of Representatives v. Mnuchin, No.
19-5176, 2020 WL 1228477 (D.C. Cir. Mar. 13, 2020).
The court agreed to rehear both cases en banc, ordered
supplemental briefing to address Article III standing
and consolidated the cases for oral argument. Now,
however, the court has determined that only one of the
two warrants discussion, remanding Mnuchin to the
panel for further consideration in light of McGahn.
Because I would resolve the House’s standing in
Mnuchin as an en banc court, I dissent from the order
remanding that case.
En banc rehearing is “not favored,” “rarely granted”
and usually ordered only “to secure or maintain uniformity of decisions among the panels . . . or to decide questions of exceptional importance.” D.C. Circuit Handbook of Practice and Internal Procedures 58
(2019). As an initial matter, it is not obvious that rehearing Mnuchin was necessary to achieve uniformity.
The Mnuchin panel had not issued an opinion before
sua sponte seeking rehearing en banc and, in line with
our precedent, could have simply “elect[ed] to withhold
its decision until the en banc court decide[d] the potentially dispositive question” in McGahn. Nat’l Ass’n of
Mfrs. v. SEC, 748 F.3d 359, 374 (D.C. Cir. 2014) (Srinivasan, J., concurring in part) (providing examples), overruled on other grounds by Am. Meat Inst. v. USDA, 760
F.3d 18 (D.C. Cir. 2014) (en banc). Nevertheless, once

62a
the en banc court agreed to rehear the Article III issue
in Mnuchin, we committed, I thought, to fully resolve
the exceptionally important questions of legislative
standing therein. By reserving these matters for the
panel to consider in the first instance, the remand order
disserves the parties’ expectations and makes poor use
of scarce judicial resources.
First, the parties do not appear to have shared the
circumscribed view that the Article III standing question before the en banc court concerned only whether
interbranch suits are generally barred.
Both the
House of Representatives and the Department of Justice briefed the court on matters relevant to whether
Mnuchin could be resolved on narrower grounds, see,
e.g., Appellant’s Supp. Br. 13; Appellee’s Supp. Br. 5,
and we provided no notice that such important questions
would remain unanswered after consideration by the en
banc court. On the contrary, the precedent cited in the
order granting rehearing en banc belies this outcome,
see Fields v. Office of Eddie Bernice Johnson, 459 F.3d
1 (D.C. Cir. 2006) (en banc) (two appeals heard together
en banc and decided in a consolidated opinion); United
States v. Crowder, 87 F.3d 1405 (D.C. Cir. 1996) (en
banc) (same), cert. granted, judgment vacated, 519 U.S.
1087 (1997), and the remand order’s post hoc explanation falls short. In United States v. McCoy, 313 F.3d
561, 567 (D.C. Cir. 2002) (en banc), we remanded the
merits question to the panel, rather than to the district
court, in order “to consume fewer judicial resources.”
But, as highlighted below, remanding has the opposite
effect here. And in Al Bahlul v. United States, 767
F.3d 1, 31 (D.C. Cir. 2014) (en banc), the appellant raised
four challenges that “[w]e intended neither the en banc

63a
briefing nor argument to address” and “with the exception of a few passages . . . , we received none from
the parties.” Remand was therefore necessary to dispose of the outstanding issues but, here, we asked for
and conducted a thorough airing of the House’s Mnuchin
standing. The majority points to no case—nor am I
aware of any—in which we sua sponte consolidated two
appeals for en banc rehearing and then addressed only
one of them in the resulting opinion.
Second, although the remand is functionally equivalent to holding Mnuchin in abeyance pending the resolution of McGahn, that does not mean our procedural
maneuverings can be written off as “no harm, no foul.”
To do so would overlook “the time and energy required
of this court every time it gathers en banc,” Order Denying Rehearing En Banc, Edison Pharm. Co. v. FDA, 517
F.2d 164, 165 (D.C. Cir. 1975) (statement by Leventhal,
J.), a concern that is especially pertinent given the constraints imposed by the current pandemic. After two
sets of briefing, two merits arguments and months of
consideration, there is no reason that the parties should
continue to languish without a definitive answer from
this court. I see no benefit in prolonging the disposition of this important case and, accordingly, I respectfully dissent.

64a
GRIFFITH, Circuit Judge, with whom Circuit Judge
HENDERSON joins, dissenting: Today the en banc
court issues an order remanding this case to the threejudge panel without deciding the sole issue we agreed to
resolve: whether the House of Representatives has
Article III standing to sue the Executive Branch for violating the Appropriations Clause. The parties have
been litigating this case for well over a year, and the
court’s remand of the matter to the panel will likely delay final judgment for at least that long again. Such
delay not only deprives the parties of timely resolution
of this dispute, but it leaves this circuit’s law on congressional standing uncertain. That confusion invites Congress to continue to litigate its political disputes with the
Executive Branch—to the detriment of both Congress
and the Judiciary.
This is not a hard case. Even under the return to
the discredited view of legislative standing that the
court adopts today in McGahn, the House still lacks Article III standing to sue to enforce the Appropriations
Clause. At bottom, the House’s lawsuit is indistinguishable from a claim that the Executive Branch has
failed to follow the law—a “generalized grievance[]” that
cannot confer Article III standing. Allen v. Wright, 468
U.S. 737, 751 (1984). What’s more, the House alone
cannot sue to protect Congress’s interest in enforcing
the Appropriations Clause, as the Supreme Court made
clear in Virginia House of Delegates v. Bethune-Hill,
139 S. Ct. 1945, 1953-54 (2019). The House’s lawsuit
must be dismissed.

65a
I
On February 14, 2019, after the longest-ever partial
shutdown of the federal government, Congress passed
the Consolidated Appropriations Act of 2019, Pub. L.
No. 116-6, 133 Stat. 13, which appropriated $1.375 billion
for construction of a wall along the border with Mexico.
That amount was several billion dollars less than the
President sought. The same day the President signed
the bill, the Administration announced that it had “identified up to $8.1 billion” in appropriated funds from
other congressional statutes to build the wall. President Donald J. Trump’s Border Security Victory, White
House (Feb. 15, 2019), J.A. 151.
On April 5, 2019, the House filed suit in federal district court, alleging that the Administration “flouted
fundamental separation-of-powers principles and usurped
for itself the legislative power specifically vested by the
Constitution in Congress.” Compl. at 2, J.A. 19. According to the House, the appropriations statutes invoked by the Administration “d[id] not authorize” the
Executive Branch to expend funds “to construct a wall
along the southern border.” Id. ¶ 103, J.A. 58. The
House claimed that this unauthorized spending violated
the Administrative Procedure Act and the Appropriations Clause. Id. ¶¶ 89-120, J.A. 56-60. The district
court denied the House’s motion for a preliminary injunction, concluding that the House lacked standing.
See U.S. House of Representatives v. Mnuchin, 379
F. Supp. 3d 8 (D.D.C. 2019).
The House timely appealed, and the matter was fully
briefed and then argued before a three-judge panel on
February 18, 2020. On February 28, our circuit decided Committee on the Judiciary v. McGahn, 951 F.3d

66a
510 (D.C. Cir. 2020) (McGahn I), reh’g en banc granted
sub nom. U.S. House of Representatives v. Mnuchin,
No. 19-5176, 2020 WL 1228477 (D.C. Cir. Mar. 13, 2020)
[hereinafter Mnuchin Order]. In McGahn I, a divided
panel held that the Judiciary Committee’s suit to enforce a congressional subpoena against the Executive
Branch did “not present an Article III case or controversy.” Id. at 531.
After the Committee filed a petition for rehearing en
banc, “the panel [in Mnuchin] requested a vote of the en
banc court to determine whether to rehear Mnuchin en
banc in light of the common issue of Article III standing
presented in that case and McGahn.” Mnuchin Order
at 1. A majority of eligible judges voted to rehear both
cases en banc. Id. at 2. We then ordered the parties
to file supplemental briefs in each case, and we heard
nearly four hours of oral argument in the two cases. In
the McGahn appeal, which is decided today, the en banc
court concludes that the Committee has Article III
standing to enforce its subpoena against McGahn. See
Comm. on the Judiciary v. McGahn, No. 19-5331 (D.C.
Cir. Aug. 7, 2020) (en banc). But the court declines to
resolve the similar question presented here. Instead,
it remands this case to the original three-judge panel to
resolve that issue in the first instance.
II
I cannot agree with the court’s refusal to decide this
case. When the court granted rehearing, it necessarily
determined that a “question of exceptional importance”
—i.e., whether the House has Article III standing to enforce the Appropriations Clause against the Executive
Branch—justified the full court’s attention. Fed. R.

67a
App. P. 35(a)(2). Indeed, that question seemed so exceptional that, acting on its own initiative, the court
voted to rehear the case before the three-judge panel
had issued an opinion. Rehearing en banc should be
rare; sua sponte rehearing even more so. Piling exception upon exception, the full court now departs from regular order by sending the case back to the panel without
answering the “question of exceptional importance” that
triggered rehearing in the first place.
What accounts for this extraordinary departure?
The court offers no explanation for this unusual move,
and I can think of none. We have more than enough
information to resolve the issue—a thorough district
court opinion, three rounds of briefing from the parties,
a lengthy oral argument, and access to the U.S. Reports.
The House and the Department of Justice have provided
the “vigorous prosecution and [the] vigorous defense of
the issues” that “[s]ound judicial decisionmaking requires.” Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 572 (1993) (Souter, J., concurring in part and concurring in the judgment) (internal quotation marks omitted). At the very least, we
owe the parties an explanation of why we’ve deprived
them of timely resolution of their dispute.
Resolving Mnuchin and McGahn together, which I
thought was the reason for hearing both cases en banc,
makes good sense. Both ask whether or when the Legislative Branch may invoke the jurisdiction of the federal courts in a dispute with the Executive Branch. By
declining to resolve Mnuchin today, the court leaves the
limits of its newly revived theory of congressional standing in McGahn undefined. That decision not only robs
Congress of a timely answer in this case, but also leaves

68a
both Congress and the Executive Branch guessing about
how future litigation between the branches might play
out, inviting them to file further suits. Sometimes, “it
is more important that the applicable rule of law be settled than that it be settled right.” Burnet v. Coronado
Oil & Gas Co., 285 U.S. 393, 406 (1932) (Brandeis, J.,
dissenting). I would not keep our coordinate branches
waiting for an answer to this “question of exceptional
importance.”
III
The question is easily answered. Even if a chamber
of Congress has Article III standing to enforce a legislative subpoena against the Executive Branch (as the
court wrongly holds in McGahn), the House lacks standing to enforce the Appropriations Clause for two further
reasons. First, the Supreme Court has repeatedly
held that a “generalized grievance” about the Executive
Branch’s failure to comply with the law cannot be an Article III injury, and the House’s complaint reduces to an
argument that the Administration lacks statutory authority to spend money. Second, even setting aside the
generalized-grievance issue, a single chamber of Congress cannot assert an injury to Congress as a whole.
By its own terms, the Appropriations Clause vests power
in the House and Senate—acting together through bicameralism and presentment—to control appropriations. At the very least, the House alone cannot invoke
the court’s jurisdiction to vindicate the full Congress’s
interest in the appropriations process.

69a
A
1
The irredeemable flaw in the House’s suit is that it
alleges only a “generalized grievance” that the Executive Branch has failed to comply with the law, and that
sort of grievance cannot confer Article III standing.
The House “maintains that the Administration violated the Appropriations Clause by ignoring the House’s
decision to limit fiscal year 2019 spending on borderwall construction to $1.375 billion.” House Suppl. Br.
10. Though the House frames its claim as an “Appropriations Clause violation,” its argument is indistinguishable from a claim that the Executive Branch has
exceeded its statutory authority. The Appropriations
Clause demands that “the payment of money . . . must
be authorized by a statute.” Office of Pers. Mgmt. v.
Richmond, 496 U.S. 414, 424 (1990). This is no different from any other action by the Executive Branch that
is not authorized by the Constitution itself.
The
House’s grievance here thus collapses into an argument
that the Administration’s spending on the border wall
lacks statutory authorization, as the terms of the House’s
complaint confirm. E.g., Compl. ¶ 59, J.A. 44 (“But defendants cannot satisfy the statutory requirements for
transferring and expending funds. . . . ” (emphasis added)); id. ¶ 92, J.A. 56 (similar); id. ¶ 103, J.A. 58
(similar).
Over and over and over again, the Supreme Court has
reaffirmed that an “injury amounting only to the alleged
violation of a right to have the Government act in accordance with law [is] not judicially cognizable.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 575 (1992); see also, e.g.,

70a
FEC v. Akins, 524 U.S. 11, 23-24 (1998); Whitmore v. Arkansas, 495 U.S. 149, 160 (1990); Allen, 468 U.S. at 751;
Schlesinger v. Reservists Comm. to Stop the War, 418
U.S. 208, 219-20 (1974); United States v. Richardson,
418 U.S. 166, 176-78 (1974); Massachusetts v. Mellon,
262 U.S. 447, 488-89 (1923); Fairchild v. Hughes, 258
U.S. 126, 129-130 (1922). That fundamental principle
imbues standing doctrine’s injury-in-fact prong with the
“separation-of-powers significance” that the Court has
“always said” it must have. Lujan, 504 U.S. at 577.
As the Court has explained, “Vindicating the public interest (including the public interest in Government observance of the Constitution and laws) is the function of
Congress and the Chief Executive.” Id. at 576 (emphasis omitted). If the “undifferentiated public interest in
executive officers’ compliance with the law” were “vindicable in the courts,” then unelected judges would effectively perform “the Chief Executive’s most important
constitutional duty, to ‘take Care that the Laws be faithfully executed.’ ” Id. at 577 (quoting U.S. CONST. art.
II, § 3).
Congressional plaintiffs must not be allowed to circumvent this cardinal feature of the separation of powers. Cf. Barnes v. Kline, 759 F.2d 21, 49-50 (D.C. Cir.
1984) (Bork, J., dissenting) (“It is well settled that citizens . . . would have no standing to maintain this action. That being so, it is impossible that these representatives should have standing that their constituents
lack.” (footnote omitted)), vacated sub nom. Burke v.
Barnes, 479 U.S. 361 (1987). Article III prevents courts
from “assum[ing] a position of authority over the governmental acts of another and co-equal department,”
whether at a private citizen’s behest or at Congress’s.

71a
Lujan, 504 U.S. at 577 (internal quotation marks omitted). Indeed, substituting the House for a private citizen doesn’t alleviate the separation-of-powers problems;
it compounds them. The Judiciary isn’t Congress’s
watchdog, and Congress may not enlist us to “monitor[]
. . . the wisdom and soundness of Executive action.”
Id. (internal quotation marks omitted). In Raines v.
Byrd, the Court declared it “obvious[]” that the Judiciary lacks the power to engage in some “amorphous general supervision of the operations of government.” 521
U.S. 811, 828-29 (1997) (internal quotation marks omitted). Allowing the House to dress up a generalized
grievance as an “institutional injury” would force the
federal courts into a role that the Supreme Court has
repeatedly and emphatically refused to accept.
The House rightly reminds us that the Executive
Branch is not above the law. But neither is the Judiciary.
The Constitution—“the supreme Law of the
Land,” U.S. CONST. art. VI, cl. 2—confines each of the
three branches to its proper sphere. Article III empowers the federal courts to resolve “Cases” and “Controversies,” not generalized disputes about the “operations of government.” Raines, 521 U.S. at 829 (internal
quotation marks omitted). And the law of Article III
standing constrains courts to policing the Executive
Branch only when necessary “to redress or prevent actual or imminently threatened injury to persons caused
by private or official violation of law.” Summers v.
Earth Island Inst., 555 U.S. 488, 492 (2009). Indeed,
as this case languishes in our circuit, other federal
judges have been doing just that—evaluating some of
the very same spending decisions in suits that allege actual injury to private citizens. See Sierra Club v.
Trump, 963 F.3d 874, 884 (9th Cir. 2020) (noting that the

72a
border wall could injure the recreational and aesthetic
interests of thousands of people); see also id. at 902-03
(Collins, J., dissenting) (agreeing that the plaintiffs have
standing).
I express no view on the reasoning in that decision,
but it illustrates the type of case in which a federal court
may consider whether the Executive Branch has violated the law: a case that implicates the “rights and
liberties of individual citizens [or] minority groups
against oppressive or discriminatory government action.” Raines, 521 U.S. at 829 (internal quotation marks
omitted). Unless a party comes to court alleging that
sort of an injury, we have “no charter to review and revise . . . executive action.” Summers, 555 U.S. at
492; see also McGahn I, 951 F.3d at 516-17.
2
The House has no persuasive counterarguments.
The House concedes that a suit alleging that the President violated a statute would “never or virtually never”
be justiciable. Oral Arg. Tr. 103:24. When a litigant
brings a suit that is conceptually indistinguishable from
one that the litigant concedes “never or virtually never”
belongs in court, we should dismiss that case.
Nevertheless, the House seeks to distinguish this
case by casting it as a suit to enforce the Constitution
itself—and thus more than an effort to stop the Executive Branch from exceeding its statutory authority.
But see, e.g., Compl. ¶ 59, J.A. 44 (alleging that the Executive Branch “cannot satisfy the statutory requirements for transferring and expending funds”); id. ¶ 92,
J.A. 56 (similar); id. ¶ 103, J.A. 58 (similar); id. ¶ 114,

73a
J.A. 59 (similar). At oral argument, we probed the limits of the House’s theory. Could Congress or the House
sue to enforce the Declare War Clause? The Bicameralism and Presentment Clause? Counsel repeatedly declined to give definitive answers, e.g., Oral Arg. Tr.
99:17-18 (“And I just don’t feel able to answer your question with a definitive yes-no.”), but insisted that “the Appropriations Clause [is] different from almost every
other [Clause] in the Constitution,” id. at 99:20-21.
Why? The House says that a harm to Congress’s
appropriations power is concrete because the Appropriations Clause “operates as an express textual prohibition on Executive Branch spending absent authorization
by each House of Congress.” House Suppl. Br. 5; see
also Oral Arg. Tr. 99:10-15. That distinction won’t
work. It is not enough that the Clause imposes a “prohibition” on spending, because the Constitution imposes
other “prohibitions” on the Executive Branch too. Unless given authority to do so by the Constitution, the Executive Branch “literally has no power to act . . . unless and until Congress confers power upon it.” La.
Pub. Serv. Comm’n v. FCC, 476 U.S. 355, 374 (1986); see
also Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S.
579, 585 (1952) (“The President’s power, if any, to issue
the order must stem either from an act of Congress or
from the Constitution itself.”). That prohibition on Executive Branch action without congressional authorization is just as fundamental as the Appropriations Clause’s
prohibition on spending without authorization.
The House also emphasized the text of the Appropriations Clause—specifically, that the Clause is an express limitation on the Executive Branch’s conduct.
See U.S. CONST. art. I, § 9, cl. 7 (“No Money shall be

74a
drawn from the Treasury, but in Consequence of Appropriations made by Law. . . . ” (emphasis added)).
But that distinction cannot matter either, for it would
craft a rule both too narrow and too broad. Too narrow
because it fails to justify the Committee’s standing to
sue in McGahn, which involves an injury to the House’s
implied power “to conduct investigations or issue subpoenas.” Trump v. Mazars USA, LLP, No. 19-715, slip
op. at 11 (U.S. July 9, 2020). Too broad because it would
authorize Congress to sue under the similarly worded
Port Preferences Clause, Titles of Nobility Clause, and
Emoluments Clause—suits which the House seems
to concede it cannot bring. See, e.g., Oral Arg. Tr.
108:14-17; id. at 109:20-24.
When pressed at argument, the House eventually
abandoned its “express textual prohibition” distinction
and settled on arguing that the Appropriations Clause
was “unique” because of “a combination of . . . various factors,” including “text,” “history,” and the “absence of any corollary power under Article 2.” Id. at
110:1-19. In other words, it just so happens that the
only Clause in the Constitution that gives the House
standing is this one. That is not a theory of the case.
It is a doctrinal gerrymander.
B
Even were the House to discover a better explanation
for its contention that the Appropriations Clause is different from the rest of the Constitution, it would not
matter in this case because the House’s claim has yet
another fatal flaw. There is a “mismatch between the
body seeking to litigate and the body to which the relevant constitutional provision” assigns the institutional

75a
interest that the asserted injury impairs.
Hill, 139 S. Ct. at 1953.

Bethune-

In Bethune-Hill, the Supreme Court considered
whether the Virginia House of Delegates—a single
chamber of Virginia’s bicameral legislature, the General
Assembly—had standing to appeal the invalidation of a
redistricting plan drawn by the General Assembly.
The House of Delegates argued that it had standing as
“the legislative body that actually drew the redistricting
plan.” Id. at 1952-53 (internal quotation marks omitted). But the Virginia Constitution stated that “members of the Senate and of the House of Delegates of the
General Assembly shall be elected from electoral districts established by the General Assembly.” Id. at
1953 (emphasis added) (quoting VA. CONST. art. 2, § 6).
The Court concluded that this language “allocate[d] redistricting authority to the ‘General Assembly,’ of which
the House constitute[d] only a part.” Id. And because “a single House of a bicameral legislature lacks
capacity to assert interests belonging to the legislature
as a whole,” the Supreme Court dismissed the case for
want of standing. Id. at 1953-54.
Bethune-Hill squarely controls. The Appropriations
Clause says: “No Money shall be drawn from the
Treasury, but in Consequence of Appropriations made
by Law. . . . ” U.S. CONST. art. I, § 9, cl. 7 (emphasis added). That use of “by Law” references the Bicameralism and Presentment Clause, see U.S. CONST.
art. I, § 7, cl. 2, which mandates that “no law [can] take
effect without the concurrence of the prescribed majority of the Members of both Houses,” INS v. Chadha, 462
U.S. 919, 948 (1983). Like the Virginia constitutional
provision in Bethune-Hill, the Appropriations Clause

76a
assigns a prerogative to the bicameral body:
gress.

Con-

Other constitutional provisions confirm that conclusion. When the Framers sought to grant a unicameral
power, they did so explicitly. For instance, Article I,
Section 5 states that “[e]ach House shall be the Judge
of the Elections, Returns and Qualifications of its own
Members,” and that “[e]ach House may determine the
Rules of its Proceedings.” U.S. CONST. art. I, § 5, cls.
1, 2. Likewise, the Constitution vests certain unicameral prerogatives in the House alone, see id. art I, § 2, cl.
5 (“The House of Representatives . . . shall have the
sole Power of Impeachment.”), and others in the Senate
alone, see id. art. I, § 3, cl. 6 (“The Senate shall have the
sole Power to try all Impeachments.”); id. art. II, § 2, cl.
2 (“[The President] shall have power, by and with the
Advice and Consent of the Senate, to make Treaties.
. . . ”). The Appropriations Clause refers not to
“each House,” nor to the “House of Representatives,”
nor to “the Senate,” but instead to Congress’s collective
capacity to make “Law[s].”
Without even engaging with the “by Law” requirement of the Clause, the House insists that there’s no
mismatch problem because the Clause vests “each
chamber of Congress [with] a veto over both the Executive and each other with respect to federal spending.”
House Suppl. Br. 6. Quoting James Wilson, the House
says that “the federal purse has ‘two strings, one of
which [is] in the hands of the H. of Reps.,’ and ‘[b]oth
houses must concur in untying’ them.” Id. (alterations
in original) (quoting 2 THE RECORDS OF THE FEDERAL
CONVENTION OF 1787, at 275 (Max Farrand ed., 1911)
(James Wilson)).

77a
That vivid metaphor has almost no argumentative
content. Undoubtedly, both chambers of Congress
must agree to pass an appropriations act, and that institutional reality sometimes gives a single chamber—
practically speaking—a “veto” over federal spending.
But that is true of any piece of legislation that Congress
wants to enact; indeed, it is a necessary feature of a bicameral legislature. If the House’s practical “veto” argument suffices to convert a bicameral power into a unicameral one, Bethune-Hill has no force. There too, the
Virginia House of Delegates had a veto over the State’s
redistricting plans. But that practical fact did not
overcome the text, which vested a power in both houses
of the Virginia legislature. Creative metaphors aside,
Bethune-Hill compels the conclusion that the House
alone lacks a cognizable institutional interest in enforcing compliance with the Appropriations Clause.
III
Anyone who thinks that the federal courts should mediate political disputes between the branches should
watch this case wend its way through the courts. Recall that in April 2019 the House asked a district court
to enjoin the Executive Branch from spending money to
build a border wall. Well over a year later, the House
is still waiting. Now the case goes back to the threejudge panel for another round of briefing and perhaps
oral argument. That’s another couple months of waiting. If the panel affirms the district court (as it should),
the House might ask the Supreme Court to intervene.
Wait a couple more months. If the panel reverses, the
prospects for timely resolution are even worse. Assuming the Department of Justice petitions for certiorari, that’s a few more months—whatever the Supreme

78a
Court does. And remember, even if the House has
standing, on remand the district court will need to address whether it has a cause of action and whether it
wins on the merits. More appeals will follow those rulings. Careful deliberation is a hallmark of the federal
courts, but that virtue comes at price: we can take a
long time. The reality is that if the House were to eventually prevail, it would not get its injunction for well over
a year.
Courts are not suited to helping the branches resolve
their differences. But in recent years, political actors
seem to be bringing more and more of these interbranch
disputes to federal court. As I’ve said, adjudicating
these disputes risks giving the impression that we’ve
joined the political fray. See McGahn I, 951 F.3d at
517-18. That impression—deserved or not—will erode
public confidence in an institution that promises to
“judge by neutral principles.” Herbert Wechsler, Toward Neutral Principles of Constitutional Law, 73
HARV. L. REV. 1, 16 (1959). And all that so the House
can wait years for a court to possibly take its side
against the Executive Branch?
I would put an end to all these lawsuits now. I would
definitively hold that disputes between the Legislative
and Executive Branches simply do not belong in the federal courts. Barring that, I would dispense with the set
of interbranch disputes that arise out of bare disagreements about the scope of the Executive Branch’s statutory authority. And barring that, I would dispense
with those cases in which the House or Senate, by itself,
seeks to assert the institutional interests of Congress as
a whole. But I cannot agree to delay resolution of the

79a
case by remanding to the three-judge panel. That delay harms the parties, and the uncertainty leaves two coequal branches guessing whether or when we will intervene in their political disputes. The very least we can
do is resolve the question we agreed to answer, and I
respectfully dissent from the order declining to do so.

80a
APPENDIX F

1.

U.S. Const. Art. I, § 9, Cl. 7 provides:

No money shall be drawn from the Treasury, but in Consequence of Appropriations made by Law; and a regular
Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to
time.
2.

U.S. Const. Art. III, § 2, Cl. 1 provides:

The judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be
made, under their Authority;—to all Cases affecting Ambassadors, other public Ministers and Consuls;—to all
Cases of admiralty and maritime Jurisdiction;—to Controversies to which the United States shall be a Party;—
to Controversies between two or more States;—between
a State and Citizens of another State;—between Citizens of different States,—between Citizens of the same
State claiming Lands under Grants of different States,
and between a State, or the Citizens thereof, and foreign
States, Citizens or Subjects.
3.

10 U.S.C. 284 provides:

Support for counterdrug activities and activities to counter transnational organized crime

(a) SUPPORT TO OTHER AGENCIES.—The Secretary of Defense may provide support for the counter-

81a
drug activities or activities to counter transnational organized crime of any other department or agency of the
Federal Government or of any State, local, tribal, or foreign law enforcement agency for any of the purposes set
forth in subsection (b) or (c), as applicable, if—
(1) in the case of support described in subsection
(b), such support is requested—
(A) by the official who has responsibility for
the counterdrug activities or activities to counter
transnational organized crime of the department
or agency of the Federal Government, in the case
of support for other departments or agencies of
the Federal Government; or
(B) by the appropriate official of a State, local, or tribal government, in the case of support
for State, local, or tribal law enforcement agencies; or
(2) in the case of support described in subsection
(c), such support is requested by an appropriate official of a department or agency of the Federal Government, in coordination with the Secretary of State,
that has counterdrug responsibilities or responsibilities for countering transnational organized crime.
(b) TYPES OF SUPPORT FOR AGENCIES OF UNITED
STATES.—The purposes for which the Secretary may
provide support under subsection (a) for other departments or agencies of the Federal Government or a State,
local, or tribal law enforcement agencies, are the following:
(1) The maintenance and repair of equipment
that has been made available to any department or
agency of the Federal Government or to any State,

82a
local, or tribal government by the Department of Defense for the purposes of—
(A) preserving the potential future utility of
such equipment for the Department of Defense;
and
(B) upgrading such equipment to ensure
compatibility of that equipment with other equipment used by the Department.
(2) The maintenance, repair, or upgrading of
equipment (including computer software), other than
equipment referred to in paragraph (1) for the purpose of—
(A) ensuring that the equipment being maintained or repaired is compatible with equipment
used by the Department of Defense; and
(B) upgrading such equipment to ensure the
compatibility of that equipment with equipment
used by the Department.
(3) The transportation of personnel of the United
States and foreign countries (including per diem expenses associated with such transportation), and the
transportation of supplies and equipment, for the
purpose of facilitating counterdrug activities or activities to counter transnational organized crime within
or outside the United States.
(4) The establishment (including an unspecified
minor military construction project) and operation of
bases of operations or training facilities for the purpose of facilitating counterdrug activities or activities
to counter transnational organized crime of the Department of Defense or any Federal, State, local, or

83a
tribal law enforcement agency within or outside the
United States.
(5) Counterdrug or counter-transnational organized crime related training of law enforcement personnel of the Federal Government, of State, local,
and tribal governments, including associated support
expenses for trainees and the provision of materials
necessary to carry out such training.
(6) The detection, monitoring, and communication of the movement of—
(A) air and sea traffic within 25 miles of and
outside the geographic boundaries of the United
States; and
(B) surface traffic outside the geographic
boundary of the United States and within the
United States not to exceed 25 miles of the boundary if the initial detection occurred outside of the
boundary.
(7) Construction of roads and fences and installation of lighting to block drug smuggling corridors
across international boundaries of the United States.
(8) Establishment of command, control, communications, and computer networks for improved integration of law enforcement, active military, and National Guard activities.
(9) The provision of linguist and intelligence
analysis services.
(10) Aerial and ground reconnaissance.

84a
(c) TYPES OF SUPPORT
FORCEMENT AGENCIES.—

FOR

FOREIGN LAW EN-

(1) PURPOSES.—The purposes for which the Secretary may provide support under subsection (a) for
foreign law enforcement agencies are the following:
(A) The transportation of personnel of the
United States and foreign countries (including per
diem expenses associated with such transportation), and the transportation of supplies and equipment, for the purpose of facilitating counterdrug
activities or activities to counter transnational organized crime within or outside the United States.
(B) The establishment (including small scale
construction) and operation of bases of operations
or training facilities for the purpose of facilitating
counterdrug activities or activities to counter transnational organized crime of a foreign law enforcement agency outside the United States.
(C) The detection, monitoring, and communication of the movement of—
(i) air and sea traffic within 25 miles of
and outside the geographic boundaries of the
United States; and
(ii) surface traffic outside the geographic
boundaries of the United States.
(D) Establishment of command, control, communications, and computer networks for improved
integration of United States Federal and foreign
law enforcement entities and United States Armed
Forces.

85a
(E) The provision of linguist and intelligence
analysis services.
(F)

Aerial and ground reconnaissance.

(2) COORDINATION WITH SECRETARY OF STATE.
—In providing support for a purpose described in
this subsection, the Secretary shall coordinate with
the Secretary of State.
(d) CONTRACT AUTHORITY.—In carrying out subsection (a), the Secretary may acquire services or equipment by contract for support provided under that subsection if the Department of Defense would normally acquire such services or equipment by contract for the
purpose of conducting a similar activity for the Department.
(e) LIMITED WAIVER OF PROHIBITION.—Notwithstanding section 3761 of this title, the Secretary may
provide support pursuant to subsection (a) in any case
in which the Secretary determines that the provision of
such support would adversely affect the military preparedness of the United States in the short term if the Secretary determines that the importance of providing such
support outweighs such short-term adverse effect.
(f ) CONDUCT OF TRAINING OR OPERATION TO AID
CIVILIAN AGENCIES.—In providing support pursuant to
subsection (a), the Secretary may plan and execute otherwise valid military training or operations (including
training exercises undertaken pursuant to section 1206(a)
of the National Defense Authorization Act for Fiscal Years

1

See References in Text note below.

86a
1990 and 1991 (Public Law 101-189; 103 Stat. 1564)2 for
the purpose of aiding civilian law enforcement agencies.
(g) RELATIONSHIP
TIES.—

TO

OTHER SUPPORT AUTHORI-

(1) ADDITIONAL AUTHORITY.—The authority
provided in this section for the support of counterdrug activities or activities to counter transnational organized crime by the Department of Defense
is in addition to, and except as provided in paragraph
(2), not subject to the other requirements of this
chapter.
(2) EXCEPTION.—Support under this section
shall be subject to the provisions of section 3751 and,
except as provided in subsection (e), section 3761 of
this title.
(h) CONGRESSIONAL NOTIFICATION.—
(1) IN GENERAL.—Not less than 15 days before
providing support for an activity under subsection
(a), the Secretary of Defense shall submit to the appropriate committees of Congress a written and electronic notice of the following:
(A) In the case of support for a purpose described in subsection (c)—
(i) the country the capacity of which will
be built or enabled through the provision of
such support;
(ii) the budget, implementation timeline
with milestones, anticipated delivery schedule
So in original.
pear.
2

Another closing parenthesis probably should ap-

87a
for support, and completion date for the purpose or project for which support is provided;
(iii) the source and planned expenditure of
funds provided for the project or purpose;
(iv) a description of the arrangements, if
any, for the sustainment of the project or purpose and the source of funds to support sustainment of the capabilities and performance outcomes achieved using such support, if applicable;
(v) a description of the objectives for the
project or purpose and evaluation framework
to be used to develop capability and performance metrics associated with operational outcomes for the recipient;
(vi) information, including the amount,
type, and purpose, about the support provided
the country during the three fiscal years preceding the fiscal year for which the support
covered by the notice is provided under this
section under—
(I)

this section;

(II) section 23 of the Arms Export Control Act (22 U.S.C. 2763);
(III) peacekeeping operations;
(IV) the International Narcotics Control
and Law Enforcement program under section 481 of the Foreign Assistance Act of
1961 (22 U.S.C. 2291);

88a
(V) Nonproliferation, Anti-Terrorism,
Demining, and Related Programs;
(VI) counterdrug activities authorized
by section 1033 of the National Defense Authorization Act for Fiscal Year 1998 (Public
Law 105-85); or
(VII) any other significant program, account, or activity for the provision of security assistance that the Secretary of Defense and the Secretary of State consider
appropriate;
(vii) an evaluation of the capacity of the recipient country to absorb the support provided;
and
(viii) an evaluation of the manner in which
the project or purpose for which the support is
provided fits into the theater security cooperation strategy of the applicable geographic combatant command.
(B) In the case of support for a purpose described in subsection (b) or (c), a description of any
small scale construction project for which support
is provided.
(2) COORDINATION WITH SECRETARY OF
STATE.—In providing notice under this subsection
for a purpose described in subsection (c), the Secretary of Defense shall coordinate with the Secretary
of State.
(i)

DEFINITIONS.—In this section:

(1) The term “appropriate committees of Congress” means—

89a
(A) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Affairs of the House of Representatives; and
(B) the Committee on Armed Services, the
Committee on Appropriations, and the Committee
on Foreign Relations of the Senate.
(2) The term “Indian tribe” means a Federally
recognized Indian tribe.
(3) The term “small scale construction” means
construction at a cost not to exceed $750,000 for any
project.
(4) The term “tribal government” means the
governing body of an Indian tribe, the status of
whose land is “Indian country” as defined in section
1151 of title 18 or held in trust by the United States
for the benefit of the Indian tribe.
(5) The term “tribal law enforcement agency”
means the law enforcement agency of a tribal government.
(6) The term “transnational organized crime”
means self-perpetuating associations of individuals
who operate transnationally for the purpose of obtaining power, influence, monetary, or commercial
gains, wholly or in part by illegal means, while protecting their activities through a pattern of corruption or violence or through a transnational organization structure and the exploitation of transnational
commerce or communication mechanisms.

90a
4.

10 U.S.C. 2801 provides:

Scope of chapter; definitions

(a) The term “military construction” as used in this
chapter or any other provision of law includes any construction, development, conversion, or extension of any
kind carried out with respect to a military installation,
whether to satisfy temporary or permanent requirements,
or any acquisition of land or construction of a defense
access road (as described in section 210 of title 23).
(b) A military construction project includes all military construction work, or any contribution authorized
by this chapter, necessary to produce a complete and usable facility or a complete and usable improvement to an
existing facility (or to produce such portion of a complete and usable facility or improvement as is specifically authorized by law).
(c) In this chapter and chapter 173 of this title:
(1) The term “appropriate committees of Congress” means the congressional defense committees
and, with respect to any project to be carried out by,
or for the use of, an intelligence component of the Department of Defense, the Permanent Select Committee on Intelligence of the House of Representatives
and the Select Committee on Intelligence of the Senate.
(2) The term “facility” means a building, structure, or other improvement to real property.
(3) The term “life-cycle cost-effective”, with respect to a project, product, or measure, means that
the sum of the present values of investment costs,

91a
capital costs, installation costs, energy costs, operating costs, maintenance costs, and replacement costs,
as estimated for the lifetime of the project, product,
or measure, does not exceed the base case (current
or standard) for the practice, product, or measure.
(4) The term “military installation” means a
base, camp, post, station, yard, center, or other activity under the jurisdiction of the Secretary of a military department or, in the case of an activity in a foreign country, under the operational control of the
Secretary of a military department or the Secretary
of Defense, without regard to the duration of operational control.
(5) The term “Secretary concerned” includes the
Secretary of Defense with respect to matters concerning the Defense Agencies.
(d) This chapter (other than sections 2830, 2835, and
2836 of this chapter) does not apply to the Coast Guard
or to civil works projects of the Army Corps of Engineers.
5.

10 U.S.C. 2808 provides:

Construction authority in the event of a declaration of
war or national emergency

(a) In the event of a declaration of war or the declaration by the President of a national emergency in accordance with the National Emergencies Act (50 U.S.C.
1601 et seq.) that requires use of the armed forces, the
Secretary of Defense, without regard to any other provision of law, may undertake military construction projects, and may authorize the Secretaries of the military

92a
departments to undertake military construction projects, not otherwise authorized by law that are necessary to support such use of the armed forces. Such projects may be undertaken only within the total amount of
funds that have been appropriated for military construction, including funds appropriated for family housing,
that have not been obligated.
(b) When a decision is made to undertake military
construction projects authorized by this section, the
Secretary of Defense shall notify, in an electronic medium pursuant to section 480 of this title, the appropriate committees of Congress of the decision and of the
estimated cost of the construction projects, including
the cost of any real estate action pertaining to those construction projects.
(c) The authority described in subsection (a) shall
terminate with respect to any war or national emergency at the end of the war or national emergency.
6.

50 U.S.C. 1621 provides:

Declaration of national emergency by President; publication in Federal Register; effect on other laws; superseding legislation

(a) With respect to Acts of Congress authorizing the
exercise, during the period of a national emergency, of
any special or extraordinary power, the President is authorized to declare such national emergency. Such
proclamation shall immediately be transmitted to the
Congress and published in the Federal Register.
(b) Any provisions of law conferring powers and authorities to be exercised during a national emergency

93a
shall be effective and remain in effect (1) only when the
President (in accordance with subsection (a) of this section), specifically declares a national emergency, and (2)
only in accordance with this chapter. No law enacted
after September 14, 1976, shall supersede this subchapter unless it does so in specific terms, referring to this
subchapter, and declaring that the new law supersedes
the provisions of this subchapter.
7.

50 U.S.C. 1631 provides:

Declaration of national emergency by Executive order;
authority; publication in Federal Register; transmittal to
Congress

When the President declares a national emergency,
no powers or authorities made available by statute for
use in the event of an emergency shall be exercised unless and until the President specifies the provisions of
law under which he proposes that he, or other officers
will act. Such specification may be made either in the
declaration of a national emergency, or by one or more
contemporaneous or subsequent Executive orders published in the Federal Register and transmitted to the
Congress.

94a
8. Section 8005 of Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A, Tit. VIII,
132 Stat. 2999, provides:
DIVISION A—DEPARTMENT OF DEFENSE
APPROPRIATIONS ACT, 2019

*

*

*

*

*

Tit. VIII
GENERAL PROVISIONS
*

*

*

*

*

SEC. 8005. Upon determination by the Secretary
of Defense that such action is necessary in the national
interest, he may, with the approval of the Office of
Management and Budget, transfer not to exceed
$4,000,000,000 of working capital funds of the Department of Defense or funds made available in this Act to
the Department of Defense for military functions (except military construction) between such appropriations
or funds or any subdivision thereof, to be merged with
and to be available for the same purposes, and for the
same time period, as the appropriation or fund to which
transferred: Provided, That such authority to transfer
may not be used unless for higher priority items, based
on unforeseen military requirements, than those for
which originally appropriated and in no case where the
item for which funds are requested has been denied by
the Congress: Provided further, That the Secretary of
Defense shall notify the Congress promptly of all transfers made pursuant to this authority or any other authority in this Act: Provided further, That no part of
the funds in this Act shall be available to prepare or present a request to the Committees on Appropriations for
reprogramming of funds, unless for higher priority

95a
items, based on unforeseen military requirements, than
those for which originally appropriated and in no case
where the item for which reprogramming is requested
has been denied by the Congress: Provided further,
That a request for multiple reprogrammings of funds
using authority provided in this section shall be made
prior to June 30, 2019: Provided further, That transfers among military personnel appropriations shall not
be taken into account for purposes of the limitation on
the amount of funds that may be transferred under this
section.
9. Section 9002 of Department of Defense Appropriations Act, 2019, Pub. L. No. 115-245, Div. A, Tit. IX, 132
Stat. 3042, provides:
DIVISION A—DEPARTMENT OF DEFENSE
APPROPRIATIONS ACT, 2019

*

*

*

*

*

TITLE IX
OVERSEAS CONTINGENCY OPERATIONS
MILITARY PERSONNEL
*

*

*

*

*

SEC. 9002. Upon the determination of the Secretary of
Defense that such action is necessary in the national
interest, the Secretary may, with the approval of the
Office of Management and Budget, transfer up to
$2,000,000,000 between the appropriations or funds
made available to the Department of Defense in this title: Provided, That the Secretary shall notify the Congress promptly of each transfer made pursuant to the

96a
authority in this section: Provided further, That the
authority provided in this section is in addition to any
other transfer authority available to the Department of
Defense and is subject to the same terms and conditions
as the authority provided in section 8005 of this Act.

